<html>
<title> - HOLDING THE DEPARTMENT OF HOMELAND SECURITY ACCOUNTABLE FOR SECURITY GAPS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 HOLDING THE DEPARTMENT OF HOMELAND SECURITY ACCOUNTABLE FOR SECURITY 
                                  GAPS

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 5, 2007

                               __________

                           Serial No. 110-67

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-962                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    66
The Honorable Paul C. Broun, a Representative in Congress From 
  the State of Georgia...........................................    83
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    78
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    68
The Honorable Norman D. Dicks, a Represntative in Congress From 
  the State of Washington........................................    60
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    81
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    84
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    64
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    88
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    72
  Prepared Statement.............................................    73
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    86
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    58
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    56
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas........................................    62
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................    79
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    75
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    59
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida......................................    70

                                WITNESS

The Honorable Michael Chertoff, Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    29

                            For the Record:

CHERTOFF TO-DO-LIST:
  Submitted by Hon. Al Green.....................................    54
  Material Submitted by Hon. Peter T. King.......................     4

                                Appendix

Additional Questions and Responses:
  Responses from Hon. Michael chertoff...........................    95


                       HOLDING THE DEPARTMENT OF
                     HOMELAND SECURITY ACCOUNTABLE
                           FOR SECURITY GAPS

                              ----------                              


                      Wednesday, September 5, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Markey, Dicks, Harman, 
Lowey, Norton, Jackson Lee, Christensen, Etheridge, Langevin, 
Cuellar, Carney, Clarke, Green, King, Shays, Lungren, Rogers, 
Reichert, McCaul, Brown-Waite, Bilirakis and Broun.
    Chairman Thompson. The committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony from 
the Secretary, Michael Chertoff, to discuss his plans to 
implement the recently enacted H.R. 1, the Implementing 
Recommendations of the 9/11 Commission Act.
    Good morning. Mr. Secretary, glad to have you. Secretary 
Chertoff, on behalf of members of the committee, again let me 
welcome you here today.
    It has been 4 years since the Department of Homeland 
Security was created. Mr. Chertoff, for 2 years now, half of 
the Department's operational life, you have been the individual 
directly and primarily responsible for assuring that the 
Department can fulfill its important mission.
    A few weeks ago, this Nation paused to remember the victims 
of Hurricane Katrina and observed a second anniversary of that 
devastating storm. In a few days, we will again pause to 
memorialize the victims of the September 11th attack and mark 
the sixth anniversary of that earth-shattering day. As we in 
this Congress and the American people mark these tragic 
milestones in our Nation's history, we all know--you, me and 
everyone within the sound of my voice--that these events have 
strengthened our resolve, increased our vigilance and enhanced 
our commitment to ensuring the preparedness response and 
resiliency of this Nation.
    I am sure that today you will take the opportunity to tell 
this committee and indeed the Nation that our country is better 
prepared than it was on September 11th to respond to a 
terrorist attack and that we are ready to meet the challenges 
of a natural disaster like Hurricane Katrina. I look forward to 
learning about your plans to implement H.R. 1, which 
statutorily enacted the recommendations of the 9/11 Commission. 
And as I look forward to hearing about these new plans, I would 
be remiss if I did not wonder whether you remain--will remain 
at the Department long enough to carry out what you will 
discuss today.
    As you know, during the August recess, the media was abuzz 
with the news of the resignation of Attorney General Alberto 
Gonzales. Likewise, many talking heads have suggested that you 
are a prime candidate to accept the position of Attorney 
General. And so before you begin your testimony, Mr. Secretary, 
I would like you to inform us whether you plan to remain 
Secretary of the Department of Homeland Security for the 
duration of this administration. I also ask this question not 
to put you on the spot but rather to gain some clarity on the 
future picture of this Department.
    As you know, in a report, committee staff found that nearly 
one-quarter of the senior leadership positions located in the 
Department of Homeland Security are vacant. In June, the 
National Journal found that DHS has added political positions 
to its rank, giving it more political appointees than much 
larger departments such as Department of Veteran Affairs and 
Department of Defense.
    To make matters worse, Mr. Secretary, the Department has 
failed to provide Congress with programs, plans and reports 
that are absolutely critical to securing the homeland. For 
instance, where is the revised version of the National Response 
Plan? Why has DHS missed its deadlines for inline baggage 
screening equipment? Where is the Department's strategic plan 
for deploying explosive detection equipment at airport 
checkpoints? Why hasn't the national emergency family registry 
and locator system been established? And where are the final 
regulations, Mr. Secretary, for TWIC?
    So, Mr. Secretary, if you are going to leave this Cabinet 
post to take a different Cabinet seat, the American people and 
I need to have a clear vision on what remains to be done.
    If you plan on staying in this Cabinet seat until January, 
2009, the committee needs to make sure that certain things have 
been accomplished before you go. In fact, Mr. Secretary, before 
you leave here today, I will give you a to-do list that 
specifies each item which should be accomplished before your 
tenure is over. When all these things have been done, I will be 
able to say that we are safer now than we are today.
    We owe the American people security; we owe them 
accountability; and, most importantly, we owe them freedom from 
fear. So as you detail your plan to implement the 
recommendations of the 9/11 Commission, I will be listening 
closely to hear how you also plan to fill key vacancies at the 
Department and your plans for completing all of your 
outstanding responsibilities.
    With that, again, I thank you for being here today; and I 
look forward to your testimony.
    The Chair now recognizes the ranking member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you, Chairman Thompson. I appreciate you 
calling this hearing.
    I certainly want to thank Secretary Chertoff for testifying 
once again and at the outset to commend him for the job that he 
has done in providing leadership to the Department of Homeland 
Security, a position which is more important than ever when we 
see again what happened last night and this morning in Germany 
with the arrests of the three alleged terrorists, with the 
arrests yesterday in Denmark, with the indictments recently of 
the University of South Florida students in South Carolina, 
this past summer with the JFK plot and the constant shadow that 
is out there and the fact that earlier this summer, Secretary 
Chertoff, even though he took flack for it, was sending a very 
clear signal to the American people and to the world that there 
are dangerous situations going on; and I believe the events of 
the last several weeks have certainly justified the warnings 
that you gave us at that time.
    I also at a parochial level want to thank Secretary 
Chertoff for the distributions this year, especially with the 
funding that came with the supplemental. I really believe that 
you have the Department on course right now to provide the 
funding to the areas that need it the most and are able to make 
the best use of it. So I commend you for that.
    I also on a personal level want to thank you for the 
cooperation your staff has given me as far as whenever we reach 
out to you to get details as to different events that are going 
on. The briefings and the data and the information and 
intelligence you provide to us has been very helpful in keeping 
me up to date.
    We did pass H.R. 1; and it passed, I believe, with the 
support of every member of this committee. Chairman Thompson 
did a very good job, I believe, in consolidating support, 
mobilizing support and getting very much into that bill.
    One concern I do have, though--and it predates Chairman 
Thompson and is probably going to be with us sometime into the 
future, hopefully not forever--and that is the idea of 
consolidating jurisdiction of this committee over the 
Department of Homeland Security.
    Several months ago--this was on May 25th--as ranking 
member, I, along with, I believe, all the Republican members of 
the committee, sent a letter to you asking you to specify the 
number of committee hearings, subcommittee hearings that you 
have to attend and members of your Department have to attend, 
the myriad of committees and subcommittees who claim 
jurisdiction over the Department of Homeland Security. 
Yesterday, you responded to that letter in a letter dated 
September 4, 2007, where you laid out again in really almost 
excruciating detail the amount of time that must be spent 
testifying.
    Now, I agree with Chairman Thompson. We ought to have 
strong oversight. I believe that for the Department to go 
forward and go forward under your leadership, to go forward 
effectively, it has to be strong oversight, constant oversight. 
That is the way the system works.
    However, having this multitude of oversight committees or 
committees claiming oversight, I believe it becomes very 
counterproductive; And I would hope that, as we do go forward, 
no matter which party happens to be in control at the time, 
whether we do it through House rules or we do it through 
legislation, that we do consolidate as much jurisdiction as 
possible into one committee.
    I am not saying this is part of a turf battle. I am just 
saying it is a sense of organization, a sense of responsibility 
that we get that done. So I will ask the chairman if I could 
introduce into the record a letter from the ranking member and 
Republican members of the committee to the Secretary dated May 
25th and Secretary Chertoff's response to us dated September 4, 
2007, and ask they be made part of the record.
    Chairman Thompson. Without objection.
    Mr. King. Thank you, Mr. Chairman.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. King. Also, Secretary Chertoff, one issue which we have 
had some disagreement on--but the fact is Congress has spoken 
or not spoken--and that is on the issue of immigration; and I--
from what I can see, certainly in the last month, the 
Department has dramatically increased enforcement, also is 
going forward with the construction of the fence along the 
border at a far more rapid pace than before. And in your 
testimony as you go forward I would ask if you could just give 
us more details on that as to what the intent of the Department 
is as far as completing the fence, whether or not it is going 
to be 370 or whether it is going to be 700 and also what 
timetable you have for that.
    Also, the impact of the recent court ruling on the 
employers and social security and the illegal immigrants. If 
you could update us on that as to the impact you think it is 
going to have.
    With that, I look forward to your testimony; and I want to 
again thank Chairman Thompson. Whatever disagreements we may 
have on particular issues, the fact is the committee is working 
in a very strong, bipartisan way under his leadership; and I 
think this hearing is going to be indicative of that.
    With that, I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    Other members of the committee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    Again, I welcome our witness today. When he was confirmed 
in 2005, Secretary Michael Chertoff became the second person to 
serve as the head of the Department of Homeland Security. Prior 
to his confirmation, Mr.Chertoff served as a United States 
Circuit Judge for the Third Circuit Court of Appeals. Prior to 
that, he served as an Assistant Attorney General at the 
Department of Justice, where he was instrumental in helping to 
trace the September 11th terrorist attacks to the al-Qa'ida 
network. He has served in a number of other public service 
positions.
    Secretary Chertoff, I thank you for your service; and I 
appreciate you agreeing to testify here today. Without 
objection, the witness' full statement will be inserted into 
the record.
    Secretary Chertoff, I now recognize you to summarize your 
statement for 5 minutes; and if you go over, we won't penalize 
you. Mr. Secretary?

    STATEMENT OF THE HONORABLE MICHAEL CHERTOFF, SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman. It is a 
pleasure to be back before the committee after the Labor Day 
recess in what has been an eventful summer on a number of 
fronts.
    Chairman Thompson, Ranking Member King, other members of 
the committee, I look forward to answering your questions. I 
don't think I am going to cover all the questions in the 5 
minutes or so I have to give the summary, but I will certainly 
be happy to tackle more specific questions as they come up.
    We have, as you noted, Mr. Chairman, just passed the second 
anniversary of Hurricane Katrina; and we now stand on the 
threshold of another notable anniversary, which is the sixth 
anniversary of the infamous attacks on September 11th on this 
country. On September 11, 2001, of course, as we watched the 
smoldering remains of those attacks, no one would have been 
bold enough to predict that 6 years would pass without a 
further successful attack on the homeland. I underscore the 
word ``successful'' because there have been attacks on the 
homeland, they have just not succeeded. That goes from--that 
ranges from the so-called ``shoe bomber'', Richard Reid, in 
December, 2001, to last summer's effort in the United Kingdom 
to place bombs on aircraft that were headed for the United 
States.
    Happily and because of the vigilance of those serving here 
in the United States as well as our allies overseas, these 
attacks have been frustrating. But even in the last 36 hours we 
have seen how real the threat remains. Arrests in Denmark and 
Germany indicate that al-Qa'ida continues to carry out acts of 
war against the West. They continue to seek fellow travelers 
and allies and adherents in the West who can be used to carry 
out attacks whether they be in Western Europe or here in the 
homeland, and American interests overseas remain very much at 
risk. So it is a sobering reminder of the fact that, 6 years 
after 9/11, the intent of al-Qa'ida and its allies to wage war 
on the west remains very much unabated.
    A question I probably get asked more often than any other 
question is, are we safer now than we were prior to 9/11? And 
the answer to that is unequivocally yes. But if you ask me is 
the job of keeping us safe done, the answer is to that is no. 
It is not done, and it may not be done within our lifetimes. 
The fact is there is no such thing as perfect security. We face 
an enemy with a long memory, an enemy that is capable of still 
getting worked up about events that occurred five and six 
hundred years ago. So we cannot afford to relax or relent.
    The enemy will continue to adapt. It will continue to 
retool itself, as the recent National Intelligence Estimate 
made very clear; and because al-Qa'ida does not stand still, we 
cannot stand still either. We have to continue to adapt, to use 
our technology to our advantage. We have to use randomness as a 
way of strengthening our systems and making it hard for the 
enemy to detect what we are doing. We have to fortify our 
defenses without clogging them or making them so overwhelming 
that they destroy our way of life, and we always have to think 
outside the box and look at the unpredictable in terms of 
assessing where the threat may be.
    The job is not done. We cannot back away from what we have 
done so far, and we have to continue to remain determined to 
protect this country.
    And in this regard I want to commend the members of this 
committee who have been very active throughout this last 6 
years, ever since the committee was formed, in working as 
partners with this Department and other elements of the 
executive branch to see to it that we have homeland security in 
this committee.
    What is our overall strategy? If I was asked to sum it up 
in a nutshell, I would say our strategy is to reduce risk 
sensibly. That doesn't mean to eliminate risk. There is no way 
to eliminate risk in the world as we live it. But we can reduce 
risk and we can do it in a commonsense way, if we are 
disciplined about understanding what the risk is and 
disciplined about how we go about tackling that risk.
    One approach is to deal with the threat itself. We have 
continued to reduce the risk against the country by capturing 
and killing al-Qa'ida leadership, by sharing intelligence in 
this country and with our allies overseas and by disrupting 
plots at home and abroad.
    Another way to reduce risk is to decrease vulnerabilities. 
We do that by sensibly building barriers and strengthening the 
measures we have in place to protect our infrastructure if 
someone should be successful in carrying out an attack.
    A third way to reduce risk is to reduce the consequences of 
an attack. We do that by enhancing our ability to respond, 
dispersing assets that could be affected by an attack and by 
finding ways to mitigate damage to human life and to the 
economy.
    Everything we do at DHS is aimed at the goal of reducing 
risk and balancing these variables in a cost-effective way. 
This committee's hard work and passing H.R. 1 is going to be of 
enormous help in continuing along this strategic path. Measures 
such as those enabling us to strengthen the Visa waiver 
program, which I previously identified as a potential 
vulnerability; making sure that people who report suspicious 
activity in good faith are protected against legal--possible 
negative legal consequences; and further moving in the 
direction of risk-based funding. These are very important 
measures in securing the homeland, and I want to thank the 
committee for its work.
    Let me talk about a few specific areas, without suggesting 
this covers the whole waterfront, in which I think we have made 
some real, measurable progress in keeping the Nation safe.
    First, let me address the issue of border security, a 
subject on which we could have a hearing all by itself. By way 
of perspective, on September 11th, we had about 9,000 Border 
Patrol agents in this country. When the President last year 
unrolled his strategy to regain control of the border in May of 
2006, that number had grown to 11,740 Border Patrol agents. 
But, as of today, we now have 14,471 Border Patrol agents. We 
are on track to get 18,300 Border Patrol agents sworn to duty 
at the end of calendar year 2008. That is what we promised last 
year. That promise will be kept.
    We have also put infrastructure in place. Among other 
things, we currently have more than 120 miles of fence in, 
pedestrian fencing, and 112 miles of vehicle barriers along the 
southern border. We expect to have 145 miles of fencing in 
place by the end of this month, by the end of September, which 
is again what we promised. That promise will be kept. By end of 
calendar year 2008, again as we promised, we are on track to 
have 370 miles of pedestrian fencing in place.
    Another promise we made last year was to abolish the policy 
of catching and releasing non-Mexicans who are apprehended at 
the border. We ended that practice last year and have kept that 
practice ended for a year that has transpired since last 
summer. We are now in the domain of catch and remove for those 
who are caught at the border.
    And we are continuing to work to deploy 21st century 
technologies as part of SBInet. We anticipate--and there was 
some delay in this because we were insistent on making sure 
everything works properly. We anticipate beginning acceptance 
testing on the first 28 miles of this high-tech program in 
Arizona in about a month.
    Now, has all this effort had an impact or result? Over the 
last fiscal year, overall apprehensions have fallen by 20 
percent. Southwestern border apprehensions have dropped by 21 
percent. Border Patrol non-Mexican apprehensions are down 39 
percent. Yuma sector apprehensions were reduced 68 percent. Del 
Rio sector apprehensions are down 48 percent and El Paso sector 
apprehensions by 40 percent.
    A recently released Pew Research report not only agreed 
that apprehensions have been declining but looked to other 
anecdotal information, including interviews with people 
operating south of the border, to conclude that the foreign-
born population of illegal immigrants has been increasing at a 
slower pace than in previous years.
    Other measures of the success we have had in driving down 
illegal immigration have been reductions in financial 
remittances overseas. I have to say I think our foreign 
partners will find that not happy news, but it happens to be a 
metric that shows that our enforcement measures have bite.
    These are all signs that illegal cross border migration is 
declining and the method is moving in the correct direction.
    I would be remiss if I didn't express my disappointment in 
the fact that Congress didn't choose to move forward with 
comprehensive immigration reform. I think without a temporary 
worker program we will start to see economic consequences of 
enforcement, but I am sworn to enforce the law as it is and 
continue to do so to the full extent of my power.
    And I also want to observe in the last fiscal year our ICE 
officers removed a record 198,511 illegal aliens in this 
country. I estimate over 3,900 administrative arrests in the 
last fiscal year; and this year we are on track to have over 
790 criminal arrests in the work site enforcement cases, which 
builds upon the 740 we had last year, both dramatic increases 
we saw over prior years.
    Of course, we worry not only about people entering between 
the ports of entry but coming through our ports of entry where 
traditionally we see the terrorist threat focused. One thing we 
talked about last year that we are currently implementing is 
the deployment of 10-print fingerprint scanning capabilities 
through our US-VISIT program. This means for people who come to 
the U.S. it is no longer going to be simply two fingerprints 
that we capture and read but 10 fingerprints, and the advantage 
of this is it allows us to compare those fingerprints against 
latent fingerprints that we pick up in the course of 
investigations overseas. So that allows us a better ability to 
determine whether an unknown, unnamed terrorist is entering the 
country.
    We currently have rolled out 10-print scanning capabilities 
at 106 U.S. consulates around the world, which is half of the 
number that we have to do; and we are beginning the process of 
putting this 10-print capability at 10 American airports 
beginning this fall.
    I can tell you we have already seen results; and, in one 
case, we were able to compare a latent fingerprint from a piece 
of paper found in the course of a search as--in one of the 
investigations of acts of terrorism overseas against the 
fingerprints taken by somebody who wanted to come into the 
United States and we found a match. Now, in this case, there--
it turned out to be an innocent explanation for the fact that 
that fingerprint was found in the particular safe house. But 
the point is it was good to know that we had that fingerprint, 
it was good to be able to ask those questions, and I think this 
is an example of the kind of dramatic increase in security that 
10-print capability gives us.
    Of course, we are continuing to move forward on a matter 
very important to this committee, which is the secure freight 
initiative, which is the initiative to put radiation detection 
equipment around the world to make sure that we can detect 
radioactive material coming into the United States. In 
compliance with the Safe Port Act, we currently have three 
overseas ports that will be scanning 100 percent of U.S.-bound 
cargo into the United States; and we have agreements with four 
other foreign ports to begin somewhat more limited scanning in 
the very near future.
    Here at home, we have deployed more than 1,000 radiation 
portal monitors at our own ports. By the end of this calendar 
year, we will have the ability to scan almost 100 percent of 
sea cargo arriving in our major seaports; and by the end of 
next year, nearly 100 percent of all ports of entry, including 
the land ports of entry, will have these radiation portal 
monitors.
    Now, while we have made some very significant steps in 
securing the homeland in these respects, I have to say there 
are some gaps that require our attention; and we are moving 
forward with those. Two of those gaps have to do with general 
aviation, that is, private planes and small boats. The very 
trait that makes these attractive as modes of transportation 
for people in the private sector also make them potential 
sources of a threat.
    We do worry about the fact that someone could lease or 
occupy a private plane overseas and then use that as a way to 
smuggle in a dirty bomb or weapon of mass destruction to the 
United States. We do worry that, having locked the front door, 
so to speak, against dangerous containers, someone could simply 
put the dangerous cargo in a private ocean-going vessel and 
take it into a U.S. port.
    Therefore, I will surely be unveiling a plan to tighten 
security standards for general aviation operators coming in 
from overseas. This will involve, among other thing, conducting 
more screening overseas and working with our overseas allies in 
the private sector to enhance security measures to enable us to 
screen for radiological and nuclear material before a private 
aircraft comes into the United States.
    We will begin this process in the very near future by 
proposing a rule that will require private aircraft coming in 
from overseas to send us lists of their passengers and crews 
before they take off so we can vet them before they become 
airborne.
    With respect to small boats, which I have indicated is a 
potential threat vector, we are beginning a program--pilot 
program on the west coast in the very near future to screen 
small boats for radiological nuclear material. Our Domestic 
Nuclear Detection Office has partnered with Seattle in the 
State of Washington to equip local officials with radiological 
and nuclear detection equipment and to test passive detection 
equipment at key choke points in the Seattle harbor, port of 
Seattle through which all the traffic, whether it be container 
traffic or private traffic, has to pass. And as we work out the 
operational details with respect to that program it is one that 
we intend to roll out at other locations, including New York, 
where we have our secure-the-cities effort to bring nuclear 
detection capability into urban areas to make sure we have 
another measure in which we can protect against a dirty bomb in 
a big city.
    Another initiative, of course, has been the need to protect 
our infrastructure in the interior of the country. Last year, 
we released our national infrastructure protection plan to 
provide an overarching framework working with the private 
sector take make sure we are protecting our infrastructure. 
Through the individual sector specific plans we have identified 
a couple of thousand key assets and are working to develop and 
further implement increased protection for those assets.
    In April of this year, we released a comprehensive 
regulation to secure high-risk chemical facilities across the 
country. We have also looked to protect the security of 
chemicals in transit by reducing the standstill time for 
railcars that carry toxic inhalation hazards around the 
country.
    One example of how this partnership with the private sector 
has been helpful I think can be illustrated by the recent JFK 
airport plot. As part of the investigation leading up to the 
arrests in that case, we worked with the private sector to 
identify whether there were any vulnerabilities in and around 
the pipelines that were the target of that plot to make sure 
that we didn't have exposure should the plot be successful; and 
that is an example of a partnership across not only the Federal 
government but with local authorities in the private sector.
    Finally, before I leave the issue of infrastructure, let me 
say that one very big issue I remain concerned about is 
cybersecurity. Much of what I can say about this is classified 
and cannot be discussed in this setting, but I can assure you 
that we are working with other elements of the Federal 
government and giving the highest priority to putting together 
an enhanced strategy with respect to cybersecurity that will 
deal with a threat that has enormous potential to damage the 
United States in the years to come.
    Finally, let me turn to improved response capabilities. In 
the wake of Katrina, I think we recognize the serious 
deficiencies we have had over the last 20 years in planning for 
and building the capabilities necessary to respond to a 
catastrophic event, whether natural or man made. I am happy to 
say we have dramatically improved our response capabilities in 
the last couple of years under the capable leadership of FEMA.
    I am also pleased to say FEMA is now at better than 95 
percent staffing and that we have permanent, experienced 
emergency managers in all 10 FEMA regions who are working 
closely with their State and local counterparts. I think, as we 
have seen in the run-up to some of this year's natural 
disasters and natural events, we are much quicker, we are 
moving much more rapidly to put capabilities in place in 
advance of a storm, and I think planning is beginning to pay 
off.
    Finally, let me talk a little bit about what you mentioned, 
Mr. Chairman, in terms of where we stand moving forward. I want 
to leave this Department with a legacy of a mature, well-formed 
organization 5 years after this Congress created what is now 
the third largest department in the United States government; 
and I am pleased to say that as we get into the final lap of 
the President's term we are very focused on continuing to add 
personnel, including experienced career personnel at all the 
senior agencies of the Department so that we do have a capable 
transition team able to move into the next administration.
    We are working to reduce to writing many of the lessons 
learned, some of them painfully learned, over the last 2 1/2 
years so the next team that comes into place under the next 
President has the benefits of the experiences that we have had.
    As far as my own plans, Mr. Chairman, all I can say is, 
like everybody else in a Senate-confirmed position, I serve at 
the pleasure of the President. So long as it pleases him to 
have me serve in this position--and, of course, God willing--I 
am happy to continue to do this job up until the very last day 
of the administration.
    For all of the reasons I have laid out here, I believe we 
are much safer than we were prior to 9/11, but we need to 
continue to work with Congress to make sure that we build the 
tools and resources to adapt to new challenges as they come 
about. Legislation such as the recent Protect America Act of 
2007, which amended the Foreign Intelligence Surveillance Act, 
provides our intelligence professionals with the tools they 
continue to urgently need to gather information about our 
enemies and detect and prevent attacks before they happen. As 
you know, the Act is temporary; and building on legislation 
such as this is vital to continue the progress we have made so 
far.
    Finally, I want to thank the 208,000 men and women of the 
Department of Homeland Security. They deserve our support, 
moral support, material support and our legal support as they 
carry out their tireless commitment to safeguarding our Nation 
24 hours a day, 365 days a year. And as we approach the sixth 
year anniversary of September 11th we should not only continue 
to support everybody in all agencies who work to keep this 
country safe, we should recognize the heroism and dedication of 
average Americans every day. Every month we hear stories about 
people who see something that is suspicious and say something 
about it, and time and again it is that alertness that turns up 
dangerous threats and allows to us frustrate plots.
    I want to thank the committee for inviting me here, and I 
look forward to answering your questions.
    Chairman Thompson. Thank you very much. I thank you for 
your testimony.
    [The statement of Secretary Chertoff follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Thompson. I remind each member that he or she will 
have 5 minutes to question the Secretary. I will now recognize 
myself for questions.
    Before I do that, let me again remind, under the committee 
rules, cell phones should be put on vibrate. We love the ring 
tones, but they are quite distracting to the witnesses and the 
members. And I will direct Mr. Twinchek that, if he hears them, 
to go to the person who is violating committee rules.
    Mr. Secretary, I was glad to hear that you say you plan to 
serve until the end of your term. But I also heard you say you 
serve at the will of the President. Perhaps he will, in 
addition, promote you to another position. Have you--can you 
share with the committee any thoughts on that?
    Secretary Chertoff. I don't think, Mr. Chairman--it would 
be presumptuous of me to try to speak for the President. It 
would be presumptuous of me to discuss any conversations that I 
have had with anybody at the White House.
    I think I have stated my position. We all serve at the 
pleasure of the President in the executive branch, at least 
those who were Senate confirmed, and, of course, God has to be 
willing that we complete our service as well. But I have 
indicated what my intent is and, you know, we will move on from 
there.
    Chairman Thompson. Let us take it a little step lower then. 
Josh Bolten at the White House has indicated that he has 
requested of certain senior members that they provide him with 
a list of individuals as to whether or not they plan to stay 
on. Have you been provided that request from the Department?
    Secretary Chertoff. Are you asking whether I was asked if I 
put--or whether I have asked others?
    Chairman Thompson. No. For you to identify other people in 
the Department.
    Secretary Chertoff. No, I haven't been asked to do that. Of 
course, I haven't formally asked people in the Department 
whether they intend to stay on in the sense of setting a cut-
off. I have, however, had discussions with the senior 
leadership of the Department. I am confident that--again 
subject to the two limitations of Presidential pleasure and 
God's willingness--that the senior leadership team we have in 
place does intend to stay on, and I think we will shortly be 
filling the remaining gaps and vacancies, and I look forward to 
having a continuity through the end of this--
    Chairman Thompson. The reason I ask that, Mr. Secretary, 
one of the, as you know, concerns expressed by members of this 
committee is the inordinate number of vacancies; and if in fact 
as we wind down this administration if that issue is elevated, 
it creates significant vulnerabilities for this country. So I 
am asking it in the spirit of you recognizing that it is a 
concern and that to some degree you put together some plan 
should that elevate itself to that level. I just put that out, 
and I am glad to say that you are on top of it, and I hope it 
does not become a problem.
    Moving forward, the national response plan that was due 
June 1st, that is now a national response framework. Can you 
tell me at what time we can expect it?
    Secretary Chertoff. Yes, we circulated--first of all, let 
me say we solicited literally hundreds of people, including 
many State and local responders, to have their input into this 
next version of the old national response plan. We then sat 
down and tried to distill all that advice into a document that 
would be readable, internally consistent and, frankly, somewhat 
shorter than the original plan that existed. We then circulated 
during the course of the summer a draft final version of the 
plan and received a lot of comments.
    I am envisioning that this month we will be issuing the 
national response framework in its final form. It will not 
become effective immediately, obviously, because we will need 
to then train people to it and exercise people to the new 
framework; and I don't think we will want to do that in the 
middle of the hurricane season. But we will have it at this 
month, the month of September. In some ways, it will be--it's 
not going to be a radical change from the improvements we have 
already made, but I think what it will do is simplify and 
clarify some of the ambiguities that we discovered over the 
last couple of years.
    Chairman Thompson. But you do recognize that it was due at 
the beginning of this hurricane season, and we are not there, 
and that is a major concern of the committee.
    Project 28. You and I have had some discussions about why 
we are 2-1/2 months late from the initial pilot on that 
project. Can you give us any better time frame on Project 28?
    Secretary Chertoff. Just to clarify for those members of 
the committee who may not have been part of this discussion, 
Project 28 is the first stage of this high-tech SBInet program 
that we have for the board. It was designed to allow us to test 
in real life--operational real life the way these systems work 
not only individually but as an integrated package. That is the 
cameras, it is the radar, it is the common operating picture 
and the ability to coordinate all of those in an automated 
fashion.
    We tested various elements of this system, and the original 
plan was in the month of June to have the system at 28 miles of 
the Arizona border, have it fully integrated and beginning 
acceptance testing so we could make a determination that we 
were satisfied with the product and take possession of it the 
end of July.
    Let me emphasize why the acceptance testing is important. 
It is a little bit like buying a car. We didn't want to get 
stuck with a lemon. So one of the lessons we learned from 
watching some of the less appealing contracting experiences of 
the past 10 years is that we should not accept something from 
the contractor and take responsibility for it unless we had 
really kicked the tires and not only taken it for a test drive 
but really gotten to drive it around for a while.
    So we did put this through acceptance testing, and although 
the individual components of the system worked well the system 
integration was not satisfactory. And, therefore, the customs 
and border protection operators, the Border Patrol operators, 
said we are not satisfied with the system.
    We then had a series of what I would describe as frank and 
candid conversations with the contractor, Boeing, including a 
conversation I had with the CEO of Boeing and the conversations 
we had at lower levels in which we explained our concerns about 
system integration. We said, if this is not going to work, if 
it is too complicated, we are prepared to go back to the 
drawing board and do something simpler; and they assured us 
that in fact it is not too complicated. This is all proven 
technology.
    They retooled their team on the ground and replaced some of 
the managers at a very high level. They focused on this, and 
they are now working through the problems of systems 
integration as we speak. In fact, I spoke to the CEO about this 
yesterday. We are now looking to begin acceptance testing in 
about a month, meaning that is the point at which they will say 
to us we think you can test us and we will then kick the tires 
again.
    Here is my pledge to you. I want to get this thing done 
quickly, but, more important, I want to get it done right. I am 
not going to buy something with U.S. government money unless I 
am satisfied it works in the real world. And if it can't be 
made to work, I am prepared to go and find something that will 
be made to work, although I will be disappointed.
    I believe the contractor understands what is at stake in 
getting this to work properly, and I think they put their A 
team in place to do it. But my mandate to the head of the 
Border Patrol is I want to make sure that the people who 
actually have to operate it are satisfied with the way it 
works, and that is what we are going to do. We are going to 
start acceptance testing in about a month. We should get it 
done well before the end of the year.
    Chairman Thompson. Thank you very much. But, on that point, 
I want to say the day before June 15th rolled out, we were--we 
had a hearing here and we were told the next day it would be 
ready to go. The only thing I share with you is we are 
concerned as well now it will cost the taxpayers more money. 
Whether or not this technology is somehow not proven to be what 
it is, if it is the contractor or whatever, that virtual fence 
is absolutely important to our overall border security mission 
and I would impress upon you that we need to do it.
    Lastly, before I go to the next--the Simone contract, Mr. 
Secretary, we understand is a sole-source, no-bid contract. The 
committee staff has been trying to get a copy of that contract. 
Your testimony said that the Department is going to be 
transparent. If you would for the committee provide us with a 
copy of that contract. We got a copy late last night, and it 
was a redacted contract. It was not what we needed; and, in the 
interest of just being as transparent as we can in the 
Department, we need it.
    I call your attention to your to-do list. I am sure James 
behind you has already made a copy of it. He is a good person, 
and I want to compliment him for the job that he does in 
communicating with us. I look forward to it.
    [The information follows:]

                             For the Record

Submitted by the Honorable Al Green, a Representative in Congress from 
                           the State of Texas

                          CHERTOFF TO-DO-LIST

<bullet> Critical Vacancies at the Department of Homeland Security--
Develop a plan for the mass exodus that will occur due to an 
Administration Change.

<bullet> Containers Security Standards and Procedures (seals)--Draft 
the regulations as mandated by the SAFE Port Act of 2006 and mandated 
again by the 9/11 Bill.

<bullet> National Response Plan (NRP)--release long overdue NRP While 
ensuring adequate input from state and local officials.

<bullet> Transportation Worker Identification Credential (TWIC)--Issues 
the TWIC card as mandated by the SAFE Port Act of 2006.

<bullet> Explosives Detection at Passenger Screening Checkpoints--Issue 
the strategic plan that was required by the Intelligence Reform and 
Terrorism Prevention act of 2004 and mandated again by the 9/11 Bill.

<bullet> Complete Critical Border Security Initiatives: Complete 
Critical Border Security Initiatives: Implement US-VISIT biometric air 
exit by the end of calendar year 2008 and complete Project 28
    Chairman Thompson. I now yield to the ranking member for 
any questions he might have.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Secretary, one integral part of H.R. 1 was the reform 
of the Visa waiver program; and, as I understand the provisions 
we adopted, it was to permit you to waive the Visa refusal rate 
requirements for participating countries provided that the US-
VISIT exit system for air travel was implemented with a 97 
percent rate of accuracy and to verify the departure of 
international travelers. What is the status of that? Can you 
give us a timeline? And any other comments you have on the Visa 
Waiver Program, especially based on what happened in Germany 
and Denmark in the last 2 days.
    Secretary Chertoff. Let me begin by saying what happened in 
Germany and Denmark and what happened in the United Kingdom 
earlier this summer underscores what we have been saying for 
some time, that the Visa Waiver Program, while a wonderful 
program for the vast majority of people from the Visa waiver 
countries who just want to just come here for tourism purposes 
or benign purposes, does open a vulnerability. Because, by 
eliminating the visa process, we lose one of the barriers to 
terrorists or criminals that we would otherwise have. It means 
we first encounter the person when they arrive here in the 
U.S., as opposed to encountering them in a consulate overseas.
    What the legislation this Congress passed does that is very 
important is it allows us to put into place an electronic 
travel authorization program. That is a program in which 
everybody, even from a Visa Waiver Program, will submit some 
information on line electronically in advance of travel. If we 
determine that someone needs to be interviewed because they are 
potential threats, we can direct them to get interviewed at a 
consulate; and the vast majority will have an authorization to 
travel over a period of time, whether it be a year or 2 years. 
It will not be particularly difficult or inconvenient because 
you can sign up for the program and then you will have an 
authorization that will last for an extended period of time, 
but it will give us something that we haven't had up to now 
with the Visa Waiver Program, which is an advance ability to 
check people who want to come into the United States. I think 
as we see the enemy trying to exploit connections in places 
like Western Europe to build a network of operatives, we have 
to make sure we stay ahead of that.
    With respect to US-VISIT exit, we later this year will 
issue a proposed regulation that will cover putting in US-VISIT 
exit at airports. That is obviously under the law of certain 
required period of time for notice and comment, but our plan is 
to begin the process of implementation next year and have it 
completed by the end of next year 2008.
    It is a very simple process as far as airports are 
concerned. It simply requires taking the existing fingerprint 
readers that we have and deploying them at kiosks or at check-
in counters for people who leave the country so that instead of 
merely swiping their passports, which is what they do now, they 
also put their finger down there. I will be honest and tell you 
the airline industry will not be happy about it because they 
will worry that it is an additional requirement or there will 
be a line or something of that sort.
    So I think it will be one of these issues that will test 
our commitment to security. Are we prepared to take what I 
think is really a minor inconvenience to give us a real picture 
of who is leaving the country or are we going to back down in 
the face of fact that people will say it is inconvenient? We 
are committed to getting it done, and I appreciate this 
Congress' support for that effort.
    Mr. King. Mr. Secretary, one piece of legislation which 
Chairman Thompson and I had sponsored and then became part of 
H.R. 1 was something which basically encourages and allows 
cooperation between the U.S. and our closest allies as far as 
perfecting technology, Israel, Britain, Singapore, Australia 
and four other countries that are mentioned. Can you tell the 
committee what steps are being taken to accelerate that level 
of cooperation and what you have in place and how you see that 
going forward?
    Secretary Chertoff. I think it is very important--a very 
important measure, Congressman King, because I think it not 
only allows us to get the benefit and share the benefit of 
technology with our close ally, but it also builds strong 
relationships.
    I can tell you we are working now with the British on ways 
in which we can further enhance technological exchanges of 
information as well as general information exchange. I recently 
signed an agreement with the Israelis under which we are going 
to be able to work to get the benefit of some of their 
expertise as well as giving them the benefit of some of our 
expertise. So, working with our science and technology 
director, we look to continue to accelerate the pace of this 
kind of information and technology exchange with our friends 
overseas.
    Mr. King. Mr. Secretary, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes other members for questions they may 
wish to ask the witness; and, in accordance with our committee 
rules, I recognize members who were present at the start of the 
hearing based on seniority on the committee, alternating 
between majority and minority. Those members coming in later 
will be recognized in the order of their arrival.
    The Chair recognizes the gentleman from Massachusetts for 5 
minutes, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Welcome, Mr. Secretary.
    Mr. Secretary, there is a new report out today from the 
Inspector General of the Department of Homeland Security. It is 
on the Department's oversight of passenger aircraft cargo and 
its conclusion is that security faces significant challenges. 
This is the redacted version of this blistering, scalding 
indictment of the Department's handling of a passenger--of 
cargo inspection on passenger planes. Let me summarize some of 
quotes from this report.
    I am quoting now, that the current level of oversight does 
not provide assurance that air carriers are meeting 
congressionally mandated goals of tripling the amount of cargo 
screened for passenger aircraft.
    Quote, TSA information reported to the Congress regarding 
air carrier compliance with legislative and regulatory 
requirements may be inaccurate.
    Quote, TSA security programs are not clearly written. TSA's 
aviation security inspectors and air carriers to interpret and 
apply the regulations do so differently.
    In other words, Mr. Secretary, your existing program for 
screening cargo going onto passenger planes is in a shambles.
    Let me read a couple of other quotes.
    It says that TSA is unable to make sure that third parties 
such as air carriers or shippers are following the rules. It 
calls into question TSA's ability to monitor and report air 
carrier compliance and screening regulations. It says that 
aviation security inspectors who are supposed to be monitoring 
compliance with the current screening requirements are poorly 
trained and lack the resources needed to do their important 
job.
    So, Mr. Secretary, this is under the existing law. Now we 
just passed a new, tougher law that I am the author of; and 
what we have learned over the last week or so is that the TSA 
intends not on physically inspecting all of the cargo which 
goes onto passenger planes, 100 percent of which is required 
under the law, but instead Kip Hawley, who runs TSA at the 
Department under your leadership, is now saying that they are 
going to do a modified version of what they are already doing, 
that rather than having real screening for bombs looking inside 
of cargo.
    So what I want to know, Mr. Secretary, is, is your 
Department going to follow this new law? Are you going to 
require 100 percent screening of the contents of all cargo 
going onto passenger planes? Or are we going to come back in 
another year and have another blistering, scalding indictment 
of this double standard where all of our bags are screened, all 
of our computers are looked at, all of our shoes are taken off 
but on the same plane goes cargo that has not been screened?
    Secretary Chertoff. First of all, let me say the report in 
question, and sometimes as happens with these reports, reflects 
investigation and accumulation of information, some of which 
goes back well over a year ago. So many of the things that were 
raised in that report had already been corrected by the time 
the report was published. In fact, I think it may be that TSA 
itself asked for this kind of a study so they could begin the 
process of fixing some of these issues themselves.
    By way of example, I think your report talks about the fact 
that there is an exemption for certain cargo being inspected. 
That exemption was eliminated some time back.
    Some of the hiring issues that are raised in the report 
were correct. We have many more inspectors. Some of the issues 
about clarity and protocols have been corrected with new 
protocols.
    I want to, first of all, ensure the public that many of the 
issues identified there have been happily corrected since the 
period of time the matter was studied.
    Secretary Chertoff. Now we do have a new law. We are 
committed to 100 percent screening of air cargo. And you know 
some of the speculation in the papers about what we are going 
to do or not do, I think----
    Mr. Markey. Are you committed to physical screening of the 
cargo that goes on the planes in the same way our bags get a 
physical screening?
    Secretary Chertoff. A combination of either a physical 
screening either by government inspectors or by certified 
shippers who would have to conduct----
    Mr. Markey. This report says that--in effect, you wouldn't 
trust a shipper to go onto the passenger section of the plane 
with their bags. Why would you trust a shipper to put cargo on 
the very same plane?
    Secretary Chertoff. Let me ask you a question, when you 
flew down here from Boston to come to this hearing, you got on 
a plane that was inspected by the private sector. It wasn't 
inspected by the U.S. Government. Every day, people get on 
airplanes where safety checks are undertaken by airlines or 
by----
    Mr. Markey. My bags went through screening.
    Secretary Chertoff. The plane itself, the engine, the 
avionics of the plane were checked by the private sector.
    Mr. Markey. My bags were checked for a bomb. The cargo is 
not checked for a bomb.
    Secretary Chertoff. My point is that while I agree with 
you, we have to check all the cargo, I do not agree that 
government inspectors have to do 100 percent of the checking 
themselves.
    Mr. Markey. Mr. Secretary, my time is running out. All I am 
saying is it sounds to me like the Department of Homeland 
Security is cooking up a deal with the air cargo industry and 
the airline industry in the same way that they cooperated with 
them in the nonimplementation of the pre-existing law which 
wasn't as strong as this law. And I am very concerned that 
passengers in America thought that Congress was tightening the 
laws so that every piece of cargo was physically inspected with 
the same standard for bags. And what I am hearing is that you 
were reserving the right to allow the air cargo industry to 
continue to evade this law, as they have for the last 5 years.
    Secretary Chertoff. I couldn't disagree more. I don't think 
that is what I have said. I think what I have said is that we 
do intend to execute the law and hold everybody to the standard 
of checking. The one thing I have said that I guess you may 
take some issue with is, that in much the same way that we 
direct the airlines to check the airplanes themselves to make 
sure they are airworthy, we are going to put into effect a 
certification program that requires shippers to check packages 
before they are palletized in shrink wrap so that we have the 
same standard of protection. Now if philosophically there is a 
belief where we cannot ever trust the private sector when we 
tell them to do something, then I have to say, frankly, 
Congressman, you have no business getting on an airplane 
because we do not physically inspect every airplane.
    Mr. Markey. No one trusts me to get on the plane without 
checking my bags. That is correct. A Congressman should not be 
trusted in a passenger cabin on the plane. But you should not 
allow a shipper who is standing behind me in line because his 
cargo is going on and you trust him----
    Mr. Lungren. Mr. Chairman, are we under a 5-minute rule?
    Mr. Thompson. I said we are flexible.
    Mr. Markey. You are saying you have--you want to think 
outside the box. That is okay with me, Mr. Secretary, as long 
as you check inside the box. And right now, you do not have a 
system that will check inside these boxes physically to make 
sure that there are no bombs. And the public has to have an 
expectation or else there will be a fire storm that comes from 
this committee and others in congress that you are not putting 
in place a law that implements the expectations of the American 
people. Thank you.
    Mr. Thompson. Thank you very much. I now recognize the 
gentleman from Connecticut for 5 minutes.
    Mr. Shays. Thank you very much. Mr. Secretary I don't want 
to spend too much more time on this issue. But as the chief 
Republican cosponsor on this legislation, we first checked 
carry-on. We didn't check the luggage that went into the belly 
of the aircraft, and then we moved to screening all luggage. It 
is the intent over 3 years to do a third, a third, a third. And 
what we believe is that if we don't check the cargo, it is a 
huge--a huge flaw in the system.
    So what I am unclear about is if you have paid people to 
inspect, and they aren't paid by the government but contractors 
to inspect but a disinterested party, then I think you are 
doing the spirit of the law. If you are basically saying the 
shippers have to check their own cargo, then I get a little 
concerned. And I want to make sure if you are saying that, we 
need to put it on the record. But if you are saying something 
different, then I would like to hear that.
    Secretary Chertoff. That is a great opportunity to make 
sure we are clear about this. Now obviously we haven't written 
the regulation yet. So I am quite confident as we write the 
regulation and we get into the details, there is going to be a 
lot of pushback. So I don't want to jump the gun and start to 
articulate all the fine details of the rule. The concept is 
this, we do want to set for shippers who are prepared to 
undertake the obligation clear standards for what they have to 
do in terms of checking that which they are going to ship 
themselves, make sure that that is validated by inspection of 
their activities to make sure they are living up to what they 
are supposed to do, and therefore--and that validation being 
either by the government or by disinterested third parties so 
that we replicate in general terms the system that we rely upon 
for the safety of the aircraft.
    Mr. Shays. But it can't be going back to the known shipper.
    Secretary Chertoff. No. It is not the known shipper.
    Mr. Shays. Well it seems to me that Mr. Markey raises a 
concern that I think we will want to follow. But I can just 
tell you, the belief of those who voted for this bill is that 
we would have a disinterested party doing the inspection.
    Secretary Chertoff. Well, I think that--as again, we will 
see the rule as it comes out. And I am sure we will get 
comments on that. I think what we are talking about is a model 
where we have certification of the shippers and disinterested 
validation of the shippers, and that this process works with 
the same level of security and confidence that we use with 
respect to other matters of life and death, such as checking 
airplanes themselves.
    Mr. Shays. Because I probably won't be allowed to run over 
as much, let me just get into another area. But I just want to 
say, you have got my attention, Mr. Markey has my attention 
because we know what we passed. And I am a little concerned 
that it sounds too much like known shipper. But I would like to 
ask you this question, we knew during the Cold War what our 
strategy was. It was contain, react, mutually assure 
destruction.
    Obviously that has gone out the window. I mean, there were 
other aspects to it. It was we weren't going to let the 
Russians beat us economically and so on. But I would like to 
have you tell me what you think our strategy is, what the 9/11 
Commission said. And by the way, I think it is a very 
inconvenient truth that we are having to confront Islamist 
terrorists. In other words, there is not just one inconvenient 
truth in this world about global warming. This is an 
inconvenient truth. What is our strategy? Tell me in your own 
words what our strategy is to deal with Islamist terrorists?
    Secretary Chertoff. In a nutshell, to reduce risks and by 
doing it by looking at all elements of chain of risks. It 
begins by looking at where the threat comes from. From the 
extent it comes from overseas, obviously if you kill or 
incapacitate those who are waging war, that reduces the risk. 
If you keep out people who are dangerous by having secure 
documentation and intelligence information, that reduces the 
risk. In terms of homegrown terrorism, our ability to detect 
and disrupt plots reduces the risk. Our ability--and maybe this 
is a longer term issue to counteract radicalization reduces the 
risk. And then it has to do with further layers of defense with 
respect to the strategy. To the extent that we have targets in 
this country, and we harden those targets, even if somebody 
penetrates our defenses, we reduce the risk.
    To use the Cold War analogy, if an enemy bomber gets 
through the radar, then we want to have our most precious 
assets protected in bunkers that can't easily be bombed. And 
then finally the last element is having a vigorous response 
program that can at least mitigate the damage done. And because 
obviously we prefer there be no damage. But the less 
consequence there is, the less harm there is for the United 
States. So there is a continuum of risk, and we simultaneously 
address all elements of that, some of them in my department, 
some of them frankly are in the Department of Defense or the 
Department of Justice or the intelligence community. But all of 
them synchronized along that basic strategy.
    Mr. Shays. Okay. Let me just close by saying that I think--
and I appreciate your answer. But I think part of it has to be 
detect, prevent, preempt, and mutually assure--excuse me, and 
maybe act even unilaterally. If a small group of dedicated 
scientists can create an altered biological agent that can wipe 
out humanity as we know it, even Jimmy Carter is not going to 
wait for permission to deal with that threat. But I appreciate 
your response. Thank you.
    Mr. Thompson. Thank you very much. The time of the 
gentleman has expired. We now recognize the gentleman from 
Washington, Mr. Dicks, for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman. And Mr. Secretary, we 
welcome you here again. I want to say--first of all, I want to 
compliment you on moving towards a 10-fingerprint system. This 
is something I advocated with others on this committee. It just 
givings you more accuracy, and it is a much better way to go. 
The 2print system is not adequate. The experts at the time said 
that. I was surprised initially that the administration put 
that in place. But I am glad that you are moving in the right 
direction.
    Now, one thing you also mentioned in your testimony about 
small boats and an initiative out in Seattle, Washington. Can 
you tell us more about that?
    Secretary Chertoff. I don't have a map in front of me. But 
as I understand it the way the port is configured in Seattle 
is, it is possible to direct all the traffic through a fairly 
narrow strait that brings you into the port. And the plan is to 
put passive detection equipment, both fixed and mobile, in that 
area so that we can identify vessels coming in that have 
radioactivity and then pull them over into secondary and have 
them inspected before they actually get into the port itself 
where they could detonate it. The idea is essentially pushing 
the perimeter out a little bit. Assuming this works 
operationally, we would then take the concept to other ports 
that are high-risk ports. Some of it is going to be more 
challenging depending on what the geography is. Seattle happens 
to be configured in a way that makes it a pretty good test bed.
    Mr. Dicks. Good. I want you to also know, we are concerned 
out there. We have the nation's largest ferry system and we 
know that the ferry system has been surveiled. And we are also 
concerned about the Cole-type incident with either the ferries 
or we have ships you know aircraft carriers like the Stennis 
that just returned where somebody could with a Jet Ski, 
anhydrous ammonia create a major problem. We are putting a much 
more secure system in with our trident submarines as they leave 
Bangor because of that potential threat.
    One of the other issues that I wanted to raise with you, 
going to the US-VISIT Program, US-VISIT is one of the few ways 
that the government can track the entry and exit of foreign 
travellers, but it is not complete. As you remember, four of 
the terrorists were people who overstayed their visas. Now, 
what are we doing about that problem? What can you tell us 
about that, about checking these people who overstay their 
visas?
    Secretary Chertoff. We have of course had biographic exit, 
meaning you swipe your passport when you leave. So we do have 
some capability to track people who are overstaying their 
visas. The difficulty has been, how do you hunt those people 
down? And what we tried to do is prioritize people who have 
overstayed where we have some reason to believe they are a 
threat to the country either because they are a terrorist or 
they have committed a crime or they are somehow threatening in 
some other way. I wish I could tell you that we have an 
automatic way to track down everybody who overstays their visa.
    We are a large country. And it may surprise some people to 
hear that 40 percent of the illegals in the country actually 
didn't come in over the southwest border between the ports of 
entry. They came in legally and they failed to leave. What we 
are hoping to do as we get US-VISIT automated is make it 
available as a tool, and increasingly available as a tool to 
State and local law enforcement so they can, when they interact 
with somebody, identify that person as an overstayer and we can 
get that person removed.
    Mr. Dicks. Are you saying there really isn't an organized 
program to check on people who have overstayed their visas?
    Secretary Chertoff. I think there is an organized program, 
but it is prioritized based upon the particular threat. In 
other words, if a student overstays, we will look to see if 
there is some particular reason we are concerned about that 
overstay and then we will go to find that student. We have done 
that for example with students from certain parts of the world.
    Mr. Dicks. Could you give us a percentage, a number, how 
many of these, of the people who are overstaying their visas 
are checked each year?
    Secretary Chertoff. I will supply that to you. I don't have 
that off the top of my head.
    Mr. Dicks. I would like to know that. I think we need to 
know that because this may be another area that we need to 
strengthen in terms of checking on these----
    I find that in our office, a lot of the people who come and 
have problems are people who have overstayed their visas.
    Secretary Chertoff. I will say we know--it is not--the 
difficulty here is not hard to know who overstayed. We know who 
overstayed not 100 percent but largely. The difficulty is 
finding them if they have overstayed. Because if you have 
100,000 people who, let's say, have overstayed, they are not 
necessarily staying in the same place----
    Mr. Dicks. Do they have to stay where they are going to be?
    Secretary Chertoff. They do. I have some experience dealing 
with fugitives. It is not going to surprise you that many of 
these people flee and hide somewhere else. And it is a big 
country. So the challenge is when we are searching for them is 
prioritizing to search for the people we are most concerned 
about.
    Mr. Dicks. Just one final comment. I don't expect an 
answer. I was somewhat taken back again when I looked at these 
infrastructure lists that some of the key infrastructure in the 
State of Washington was not on the list. And I made that clear 
to the State officials and to your people. But it still worries 
me that some of the key infrastructure was not listed. And it 
is a classified matter so I can't get into it. But I just want 
to bring that to your attention. Thank you, Mr. Chairman.
    Mr. Thompson. Thank you very much. Mr. Secretary, during 
the 9/11 conference, we sought information on visa waiver, and 
overstays. And in light of what Mr. Dicks' questioning, we 
basically were told that no system exists for identification of 
individuals who overstay. So I look forward to whatever you can 
get back to us to shed some light on that issue. It is a 
problem, as your office has already identified, Mr. Dicks. We 
now recognize the gentleman from Texas, Mr. McCaul, for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you, 
Mr. Secretary, for being here today. And let me say it was an 
honor to be with you in the Justice Department when you were 
assistant attorney general. I believe whether you return to the 
Department or stay in your current position, I know that you 
will serve your country well. And you have served your country 
well. I want to just echo the ranking member's comments on the 
9/11 bill. As a conferee, we really tried hard to implement the 
recommendation. It had to do with Congress providing a 
principal single point of oversight. I know that you have had--
you have about 88 different committees and subcommittees. You 
have had about 4,000 different briefings and hearings. And 
while we have the responsibility of oversight, I believe we 
need to conduct that in a responsible way. And I believe that 
recommendation should have been implemented. I am sorry that it 
was not. Your time is valuable. And I think you need to--you 
need ample time to do what you were supposed to be doing, that 
is tracking the terrorists and protecting the homeland. We had 
a very important debate last month in the Congress. You 
referenced to it.
    But I wanted to get your--just your viewpoints not only as 
the head of the Homeland Security, but as a head Justice 
Department official, and that is the FISA modernization. I 
worked on these FISAs, the national security wiretaps, when I 
served. You had to be an agent of a foreign power in the United 
States. What we were hearing is that even if you are an agent 
outside the United States talking to someone outside the United 
States in a foreign country, that we would still have to go 
through the FISA court.
    Fortunately after a lot of opposition and a very healthy 
debate, we did pass that measure, and it was signed into law by 
the President. But the fact of the matter is, intelligence is 
the first line of defense in the war on terror. The old adage, 
we have to be right every time. They only have to be right 
once. Through your good work, we were able to stop the JFK 
plot, the London arrests, and now recently we have heard in 
Germany and Denmark the success. And people tend to forget 
about these things.
    We all remember 9/11. We tend to forget about the successes 
we have had in stopping this. I don't know to what extent you 
can comment on these two plots and what was entailed. And also 
with respect to Pakistan, we have a very volatile situation 
brewing where we have the military, Pakistani Army being taken 
hostage by Islamist radicals. Obviously Pakistan has nuclear 
weapons, and the idea of Pakistan being taken over by Islamic 
extremists is of great concern to me and this Congress. So if 
you could just comment if you will on the impact you believe 
that this new law that we passed in the Congress, what impact 
that will have with respect to your new job.
    Secretary Chertoff. Well, first of all, let me echo what 
you said about focussing oversight of the Department and this 
committee. Not only is it a matter of saving time, but I think 
this committee, and of course the appropriators who deal with 
us, are the two bodies in the House that are best situated to 
have a holistic view of what goes on here. And not to look at 
the Department as an accumulation of individual components that 
have, you know, where you have a little slice of jurisdiction 
but where you really have the big picture. And oversight is 
important, but it should obviously be disciplined and 
coordinated oversight. And anything we can do to help support 
strengthening this committee's ability to conduct its important 
mission is something we would be happy to do.
    I think as you know from your own experience, Congressman, 
the best way to stop something bad from happening is to have 
the intelligence detected so you can intervene. Otherwise, you 
are relying upon your ability to spot something while it is 
underway. And I think in the modern world, the ability to 
intercept communications, both from my own experience doing 
criminal cases and from what I have seen in the national 
security areas, probably the number one tool. To use the 
analogy Congressman Shays used earlier with respect to the Cold 
War, this is like radar, and not to have this tool would be as 
if in the middle of the Cold War we had said, we are going to 
take our radar system down, and when the enemy bombers come 
over, you see them over the horizon, then we will launch our 
fighters. You would not have wanted to fight the Cold War that 
way.
    I think it is important that the bill which Congresses 
passed over the summer be extended and made permanent so we can 
make sure that our intelligence community can have the 
confidence that they will they will be able to use this tool 
going forward.
    Mr. McCaul. And to the extent I have a little bit more 
time, is it possible to comment or elaborate on the two plots 
that were foiled?
    Secretary Chertoff. I will limit myself just to what the 
foreign governments have said. I don't want to step on their 
toes. The Danish have confirmed that they saw al-Qa'ida 
connections with the people that they arrested. And I think the 
Germans have indicated that the people they arrested, the three 
individuals were connected with Jihad Islamic union, which is 
an affiliated group. And both countries have confirmed that 
there was some training activity that occurred in South Asia. I 
do think, as the National Intelligence Estimate said, we are 
very aware and concerned about training activities in certain 
parts of Pakistan. I think in the last couple of months, the 
Pakistani Army and government has been more vigorous in 
pressing on some of those locations where activities are taking 
place. But I don't think we should underestimate the challenge. 
You have groups of fighters who are collecting in Pakistan and 
perhaps in other parts of south Asia, and in Iraq, frankly, 
looking for safe havens in which they can train. And the more 
space they get, the more efforts we are going to see like what 
we have seen in Denmark or in Germany, particularly recruiting 
foreigners coming from western Europe, training them and 
sending them back in order to carry out missions. And it is 
only a 6-hour plane ride from western Europe to the United 
States.
    That is why we are working not only to build up the--to 
toughen our visa waiver program up but we are working to get 
more intelligence and more signals intelligence so we can help 
our friends overseas protect themselves. Because that is good 
for us as well.
    Mr. McCaul. Thank you. Thank you, Mr. Chairman.
    Mr. Thompson. Thank you very much. Following up on your 
comment, Mr. McCaul, we will schedule a classified briefing at 
the committee SCIF to talk on this very subject.
    We now yield the gentlelady from California 5 minutes, Ms. 
Harman.
    Ms. Harman. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary. For my two cents, I hope you stay in this job until 
the end of the Bush administration. I think it has been a tough 
job for you and for the country. I think perhaps we were too 
ambitious in the way we set up the Department. But nonetheless, 
after the heroic effort you have made and the learning curve 
that you have, I think it would be a disappointment if you were 
to move elsewhere.
    I would also just opine that should you move to the Justice 
Department, I think you would spend a year and a half digging 
out of a very deep hole. And I am not sure if I were you that 
that would be something I would really want to do. You don't 
need to respond. But I did want to put it out there.
    I want to thank you on behalf of Los Angeles City and Los 
Angeles County for enormous effort made to keep that part of 
the country safer. I appreciate your three trips at my 
invitation out there to look at the port, to look at the fusion 
center, to talk to key people. I think it has made a big 
difference. And when I hear you testify this morning, I hear 
some of the material that we have discussed in the past and I 
appreciate the effort that you are making.
    I agree with others, and I certainly agree with Mr. McCaul 
that the world is getting more dangerous. I want to commend the 
Department for the involvement it had in Denmark and in Germany 
and elsewhere with respect to the takedowns that just occurred. 
And I did appreciate briefings by Charlie Allen on those 
situations in my role as chairman of the Intelligence 
subcommittee. But now let me make a comment and ask a question.
    My comment is that you are right, that it is critical for 
us to intercept conversations and e-mails in real time and to 
find out whether foreigners or Americans are plotting to harm 
us. But I strongly disagree that the best way to do this is 
through the legislation that Congress just passed. I think that 
legislation permits unfettered executive power, and I would 
prefer to restore the checks and balances that the Foreign 
Intelligence Surveillance Act put in place 30 years ago, and 
which, in my view, could be modernized and be a better way to 
go to get the same information than the way we are going.
    And so I am working on a bipartisan basis to see whether we 
can amend the law we just passed to provide review by an 
Article 3 court--and I know you understand very well that 
Article 3 courts are separate from the executive brancH--of the 
basic scope and parameters of the program to prevent any 
executive, not just this one, but any executive in the future 
from using what is a very valuable tool for the wrong purposes.
    My question is this, in your testimony, you scarcely 
mentioned intelligence, your written system and your oral 
testimony. You mentioned it in response to Mr. McCaul. But the 
9/11 bill, H.R. 1 spends a lot of time on intelligence. And one 
of the things that it does is to try to improve the way the 
Department and our Federal intelligence community shares 
information with State and locals. In fact, it compels their 
participation in the National Counterterrorism Center through a 
means that we have agreed on called the Interagency Threat 
Assessment and Coordination Group, the ITACG and with the 
purpose of making certain that intelligence products 
incorporate their views of what they need and the form that 
would be useful to them.
    So my question to you is, would you like to elaborate your 
testimony on the importance of information sharing vertically 
with state and locals?
    Secretary Chertoff. And I didn't mean to slight it. Often 
when you get into discussion of intelligence, then you wind up 
getting into classified matters, so you really can't talk about 
the value of it except in generalities. Let me say that I do 
think that vertical intelligence sharing--I think we have done 
quite a good job horizontally with intelligence sharing. Unless 
you want to elaborate on that I won't get into that. Vertical 
intelligence sharing, particularly using fusion centers, is I 
think the next big step forward. And our vision is to have, you 
know, 20 to 30 fusion centers with our--having some analysts 
embedded in the fusion center before the end of the President's 
term.
    Part of what we are trying to do is enable and empower 
local and State law enforcement to use the tools of 
intelligence themselves in order to detect particularly 
homegrown threats, which they are more likely to be able to 
detect than we are because they are very low signature, they 
are not going to have necessarily international communications 
involved. And in order to do that, we do need to have an 
ability through the ITACG, I guess is the way we would say the 
acronym, to understand what the customer is looking for.
    We have identified some people, some State and local law 
enforcement people who are currently assigned to DHS, to send 
over, and we are looking to have this stood up this month. I am 
hoping that as we develop the concept we will get greater and 
greater enthusiasm from more and more State and local law 
enforcement people for participating in this process. I want to 
be careful in how I say this, but I do want to give you one 
anecdote that supports this. My understanding is that because 
of the South Carolina fusion center, we were rapidly able to 
determine after the initial stop of the two south Florida 
students in South Carolina that this was a matter that would be 
of interest to a broader community than just the local traffic 
police.
    And I think that that is a great example of how a fusion 
center should operate. It should take something that my might 
ordinarily, you know, traffic police might shrug his shoulders, 
and it gives that--creates a vehicle for sharing that 
information.
    Ms. Harman. Well, I thank you for that answer. I would 
commend to you, Mr. Secretary, H.R. 1955, based on your 
testimony, which was unanimously--I believe unanimously 
reported by this full committee on homegrown radicalization. We 
think that commissions should be set up to study this carefully 
to understand the specific point of which someone who may be 
radical--being radical is permitted under our Constitution. But 
committing radical violent acts is not. We want to understand 
that the point at which someone changes. And I hope your 
Department will take a look at it, and I also applaud your 
support of the fusion centers. Thank you, Mr. Chairman, for 
allowing me to go over my time.
    Mr. Thompson. Thank you very much. We now recognize the 
gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman, very much. Good 
morning, Mr. Secretary.
    Mr. Secretary, last month, two students at the University 
of South Florida, close to my congressional district, were 
arrested in South Carolina, charged with carrying explosive 
devices. One student has since been indicted by a Federal grand 
jury with transporting explosives while the other was charged 
with transporting explosives and helping terrorists by aiding, 
teaching and demonstrating the use of an explosive device in 
furtherance of an activity that constitutes a Federal crime of 
violence. I know you can't comment specifically on the case. 
But there are several questions that need to be answered as 
soon as possible to better understand the larger homeland 
security implications of this matter. And I would like to ask 
these questions. To what extent is DHS working in conjunction 
with DOJ to determine whether this is an isolated case or 
whether there could be connections between these individuals 
and suspected terrorists or terrorist groups?
    Secretary Chertoff. In every case like this, not only DHS 
and DOJ, but the intelligence community from the very moment 
that something is detected, the first priority is to see what 
are the connections and linkages between the people who are 
looking at and anybody else? So I can guarantee you that from 
the, you know, literally the day of the arrest, priority number 
one was to examine any connections or linkages between 
individuals arrested and anybody else that might pose a threat. 
Now sometimes they turn out to be, you know, innocent linkages. 
But there is nothing that we could do that is more important 
than getting our arms around the full scope of a network if we 
focus on a particular threat.
    Mr. Bilirakis. Thank you. Does DHS have the ability to 
monitor whether those here on student visas are actually 
complying with the terms of those visas and not simply using 
them as a way to gain entry into the country for other 
purposes?
    Secretary Chertoff. We do to a limited extent. We rely upon 
the school. Once someone gets a visa, and they are supposed to 
enroll in a course of study and be attending school for a 
certain amount of time. If someone falls out of that status 
requirement, the school is obliged to notify us, and at that 
point we will pick up the student and deport the student. Many 
schools live up to that. Some schools do not. We have, from 
time to time, run operations to validate whether schools are 
complying with the rules or not. And in cases where we have 
found people for example out of status and it wasn't reported, 
we will obviously find the person and deport them.
    Most schools try to honor their obligation. There are some 
that do not, and we have actually I believe yanked the 
privilege of hosting foreign students from some of the schools 
that are not living up to their end of the bargain.
    Mr. Bilirakis. I don't know if you will know the answer to 
this question, but I need to know how many foreign students 
have entered the U.S. since 9/11 and enrolled in classes but 
not subsequently attended them? And if you don't know that 
question, if you could please provide that to us, maybe other 
members of the committee would be interested as well.
    Secretary Chertoff. I will get back to you on that.
    Mr. Bilirakis. Okay. Thank you. There are several different 
Federal agencies that process and monitor the entry of foreign 
students in the United States. My understanding is that 
potential foreign students must satisfy the DOS consular 
officials abroad and DHS inspectors upon entry to the United 
States, that they are not eligible for visas under the 
Immigration and Nationality Acts, grounds for 
inadmissibilities, which include provisions regarding one's 
past criminal history.
    What criminal acts would preclude the issuance of a visa or 
deny entry into the United States of a nonimmigrant foreign 
student? And I understand that this may apply in this 
particular case that I am speaking of.
    Secretary Chertoff. I don't think I could give you a 
comprehensive list off the top of my head. Obviously felonies 
would be a disqualifier. I don't know what misdemeanors would 
be. And there may be some variations in legal systems that make 
it a little bit complicated to categorize something as a felony 
or a misdemeanor.
    Mr. Bilirakis. Can you please provide that information to 
me?
    Secretary Chertoff. Yes.
    Mr. Bilirakis. I would appreciate it. Do you believe that 
there is proper coordination and sharing of information between 
various Federal agencies responsible for the admission and 
monitoring of foreign students in the schools which they are 
attending? And you did touch on that. Can you expand upon that?
    Secretary Chertoff. I believe there is very good sharing 
among Federal agencies. I don't think it is perfect or 
flawless. And given that you are dealing with thousands and 
thousands of people coming to the U.S. every year, just human 
error is going to result in problems once in a while. I think 
the harder issue is in dealing with the schools. I think some 
schools are reluctant to report students who drop below their 
course requirement or make themselves absent because they don't 
want to see themselves as enforcement tools for the U.S. 
Government. I think that the danger is that that creates a 
vulnerability in the program. And as a consequence, we do have 
to sanction schools. And I am not hesitant to do so.
    Mr. Bilirakis. That is good to know. Thank you very much. 
Appreciate it, Mr. Secretary.
    Mr. Thompson. Thank you very much. We now yield 5 minutes 
to the gentlelady from Virgin Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary. Before I ask the question, I just wanted to let you 
know that on a positive note that I see that we have an Office 
of Health Affairs, and we had an opportunity to meet with Dr. 
Rungy a few months ago and see his mission and his jurisdiction 
becoming clearer and they have good goals, measurable 
objectives. And while they have probably still a few vacancies, 
I think that if all of the other directorates and offices were 
coming together like that, the Department would really be in 
good shape.
    That being said, I still have a health question. And we had 
a hearing on May 15 where FEMA Director Mr. Paulison was here, 
and the chairman asked him then about formaldehyde in travel 
trailers. He had assured us at that hearing that there were no 
problems. Of course now we know differently. The committee also 
wrote to you recently asking if you planned on conducting a 
health assessment to determine whether or not the trailers are 
a problem and whether the people living in them are at risk. 
Could you tell us what you have done on that or how you plan to 
ensure that the trailer occupants are safe?
    Secretary Chertoff. Let me begin by saying, and I know you 
know formaldehyde is a common building material. There probably 
is formaldehyde in the room here. And there is no--somewhat to 
my surprise, there is no standard for the acceptable level of 
formaldehyde in travel trailers. People have drawn analogies 
based on OSHA and other standards. The doctors I have talked to 
say that is really an imperfect analogy. So we don't really 
have an actual standard.
    We have asked the Centers for Disease Control and EPA to 
put together a protocol to test and set a standard to determine 
what would be a safe level. But I didn't want to wait for the 
scientists. So I very clearly said a few weeks ago in New 
Orleans, if anybody is in a trailer and is concerned about 
formaldehyde, either because they are uncomfortable physically 
or because they are just because they are just anxious about 
it, we will get you out of the trailers, no ifs, ands or buts. 
We will put you someplace else. We will have to find 
alternative housing, it may not happen immediately.
    Those in greater distress, we will put in a hotel. We got 
about 1,000 people out of the total number that are left that 
requested to be moved. Ironically, we also got a significant 
number of people who asked if this meant they wouldn't be able 
to buy their trailer because they wanted to keep the trailer.
    For the time being, until we get a satisfactory scientific 
answer, we will not sell or give trailers away. And I think for 
this year, we are not going to rely on trailers. I have always 
be been skeptical of trailers certainly as a group housing 
solution. I think it is a very bad solution. So we will err on 
the side of safety here and look for alternative housing if 
people need to have that in the event of a catastrophe.
    Mrs. Christensen. I do think that in addition to asking 
what EPA and CDC can tell you what a safe level of formaldehyde 
might be, CDC, through their agency for toxic substance and 
disease registry can do health assessments to see if there is a 
problem and work backward from there, and I think that would be 
appropriate.
    Secretary Chertoff. We have a 1-800 number where people can 
call up to get information. And if they have any questions 
about health, they can refer to a CDC person who will answer 
their questions and help them through the medical process.
    Mr. Dicks. Just for a brief comment. A lot of people--some 
people have allergies, and the people that react to this have 
allergies.
    Mrs. Christensen. I guess it was when you did your second 
stage review you put TSA, Border Patrol and ICE directly under 
you in your reorganization. And I had questions about that at 
that time. Can you tell me how that has or has not improved 
their collaboration and their operation? And if you plan to 
continue that going forward or are you planning to change that?
    Secretary Chertoff. No. I think that has actually worked 
very well. Let me give you a couple of concrete examples. First 
of all, we have created something called viper teams, which 
started out as a mobile TSA security unit, a quick response 
team that we could use to do surge security operations. And it 
has worked so well that we have expanded it to have a DHS viper 
team so we have Customs and Border Protection, Coast Guard and 
TSA working together to train and deploy mixed teams, depending 
on the particular environment. We have done similar kind of 
cross training and cross-exercising with respect to Coast Guard 
and Customs and Border Protection at our seaports where we 
literally have interoperability between Coast Guardsmen and 
Customs and Border Protection on inspections. All of this is 
part of a big element of what we are trying to do with the 
departments, which is try to build one DHS with interoperable 
elements.
    Instead of having done it with this middle layer between 
the Secretary and the Deputy and the component heads, the way 
we work now is we have something we call the gang of seven, 
which all of the operating heads meet once a week either with 
the deputy or with me and we all discuss common policy issues 
and problems. And that is the way in which we actually make 
sure that the component heads are constantly talking to one 
another and we are getting the benefit of that collective 
wisdom. So I have to say I think this was a good thing. It 
flattened the organization, it actually promoted cross 
fertilization.
    And more and more we see the components themselves seeking 
out opportunities to plan and work together. Last thing, if I 
can be real quick, a big lesson for the Defense Department in 
Goldwater-Nichols was jointness. We have a management directive 
now that basically tells people who want to be SCS that in 
order to make their application more attractive for Senior 
Executive Service, they should plan to spend a rotation out of 
their component either in a joint activity of the Department or 
in another component to kind of build the sense of jointness. 
So this is what we are doing to kind of build that unity.
    Mrs. Christensen. Thank you, Mr. Chairman. My time is up, I 
believe.
    Mr. Thompson. Thank you very much. We now recognize the 
gentlelady from Florida, Ms. Brown-Waite, for 5 minutes.
    Ms. Brown-Waite. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I can only imagine 
putting together so many different agencies under one umbrella. 
It is kind of like herding cats. It is not an easy job to do.
    There recently was, I believe, it was a GAO report, and I 
meant to bring it down with me to be able to actually quote it 
correctly, and I left it up in my office. But that said that 
customs lacks the ability to track cargo supposedly going 
through the United States. In other words, it comes into a port 
and it is then transported supposedly either to Canada or to 
Mexico, or possibly even over to the west coast. So we are 
losing a lot of Customs money that should be collected because 
these items are actually being dumped in the market in the 
United States. Are you familiar with this report?
    Secretary Chertoff. I don't think I have seen that report. 
I can find it and I am sure the head of--the commissioners of 
Customs and Border Protection has seen it if it is out there.
    Ms. Brown-Waite. Okay. If you could get back to us on what 
is being done to remedy this, number one. And number two, let 
me relate it to the potential dangers of some of the trucks 
coming in from Mexico. And if we can't track the cargo that is 
supposed to be going through the country, not being dumped into 
the country, I don't think that a lot of Americans have a lot 
of warm fuzzy feelings about the trucks coming in through 
Mexico as to what the contents may very well be.
    Secretary Chertoff. Well, this I should make clear. In 
terms of trucks from Mexico, the new rule about trucking 
doesn't change what has always been the case, which is we 
inspect the cargo that comes in, and we target the cargo for 
inspection, you know, in the same way we do for any other 
cargo. All that the truck rule does is instead of offloading 
the cargo 25 miles inside the U.S. to a U.S. trucker, it allows 
the trucker to continue on into the interior. I know there are 
issues that are raised about the safety of the drivers, those 
fought with the domain of the Department of Transportation. But 
from the standpoint of the security of the cargo, allowing 
Mexican drivers to drive into the interior does not change, 
does not relax or in any way modify the existing security 
standards.
    Ms. Brown-Waite. Do you not see a correlation between the 
cargo that we can't track that gets dumped into our economy 
because of a lack of a system there and a problem?
    Secretary Chertoff. Not having seen the GAO report, and I 
don't know if they were talking about land ports of entry or 
sea ports of entry, I don't think the existence of--I don't 
think whether the trucker is Mexican or if they get a new 
driver to come in at 25 miles in necessarily tells you anything 
about what happens with trans-shipments. But I am flying a 
little in the dark because I don't have the GAO report so I 
probably will get back to you.
    Ms. Brown-Waite. If you could get back to the committee, 
that would be very helpful. Let me ask another question, and 
that is sanctuary cities are an insult to law abiding citizens. 
If the Federal Government cut off any Federal aid to sanctuary 
cities, do you think that this would help stem the illegal 
flow?
    Secretary Chertoff. I think--you know people use the term 
sanctuary city in different ways. So I am never quite sure what 
people mean. Some cities have a policy that if somebody comes 
in and is the victim of crime, they are not asked about their 
status. Others may go further and not report felons who are 
illegal to us to be removed. I think that is actually very a 
foolish and counterproductive policy. I am not aware of any 
city, although I may be wrong, that actually interferes with 
our ability to enforce the law. I certainly wouldn't tolerate 
interference.
    I will tell you I think there is a proposal in one location 
to prevent us from using basic pilot in the city, and we are 
exploring our legal options. I intend to take as vigorous legal 
action as the law allows to prevent that from happening, 
prevent that kind of interference.
    In terms of funding, I don't have the authority I think--I 
mean let's assume we have homeland security funds for 
particular city, I don't know that I have the authority to cut 
off all homeland security funds if I disagree with a city's 
policy on immigration. And of course, I have to say that the 
consequence of that might be to put the citizens at risk, you 
know, in the event of a natural disaster or something which--I 
don't want to put people's lives at risk. But I do think where 
the law gives me the power to prevent anybody from interfering 
with our activities, we will use the law to prevent that 
interference.
    Ms. Brown-Waite. Mr. Secretary, I am not just referring to 
funds through your Department, but say transportation money, 
any Federal funds that would flow into a city that sets itself 
up as a sanctuary city, if that were done, do you think that 
there would be less of a tendency for areas to be considered 
sanctuaries?
    Secretary Chertoff. I have to say, honestly, I don't know 
what the reaction would be depending on what was cut off. I 
think it would depend on the city. I mean I could probably 
guess there are some cities, they would become more stubborn. 
Others might change their policy. It is hard for me to guess in 
the abstract.
    Ms. Brown-Waite. Thank you. I yield back the balance of my 
time.
    Mr. Thompson. Thank you very much. We now recognize the 
gentlelady from Texas for 5 minutes, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Welcome Secretary 
Chertoff. Let me, first of all, quickly congratulate you for 
the increased numbers of border patrol. I think we have spoken 
about that over the years post-9/11, and a number of us had 
comprehensive immigration reform that included adding upwards 
of 15,000 or more border patrol agents. And you are certainly 
making that particular journey. Let me also acknowledge--and 
because our time is short, the anniversary of Hurricane 
Katrina. And I imagine that FEMA, under your leadership and 
Director Paulison who, by the way, was particularly attentive 
and responsive during the number of threats and continued 
threats of hurricanes, that it has now moved to HUD.
    My simple question, or my simple point on the record is, 
New Orleans remains a calamity. The gulf coast remains a 
calamity, and pushing it from one agency to another solves no 
problems. And I just want to put that on the record for a 
possible brief comment.
    But I want to focus on aviation. And I am very glad that 
Department of Homeland Security has itself recognized that 
transportation modes remain an attractive and conspicuous 
target for terrorists.
    The JFK incident, and then, of course, in the last 48 
hours, the discovery of the German plot. It is comforting that 
you have discovered that even though general aviators mostly of 
great means oppose any intervention, it is crucial that we 
assess the general aviation industry. And I might suggest we go 
further. I have videotape showing the complete penetratable 
opportunity in small general aviation airports across America. 
And frankly, I look forward to our committee and my 
subcommittee looking at this question very carefully. So I ask 
you the question about general aviation as a whole, the 
airports which are without security and can be penetrated. I 
would appreciate your response to that.
    Let me finish one or two other points. The TWIC card has 
been difficult. It is about to be rolled out. There are 
benchmarks. Workers are concerned. They want to know what the 
procedures are. Are we going to remove people from their 
ability to provide for their family simply because they have 
had a traffic ticket or some other infraction? We need to be 
able to balance the homeland security with the civil liberties 
and civil rights of our workers. Then I know that there has 
been a legal action taken. But let me lay on the record for you 
the difficulty with the progress or the plan for the employee 
verification. I hate for people to mix apples and oranges and 
suggest how the Social Security process of employer 
verification is going to substitute for a comprehensive 
immigration reform and of course catch all the terrorists in 
America.
    What it is going to do is to put restaurants out of 
business, it is going to put all of these small businesses who 
really need an extended period of time. So I have written the 
President asking for an extended assessment to see how we can 
ensure that we have homeland security, but we have a 
verification process that does not eliminate huge segments of 
the business community and not big businesses but restaurants 
and small construction contractors who are trying to do their 
best to answer this question.
    So I would appreciate your answers to the questions I have 
laid out, and particularly with the focus on aviation security 
in the general aviation area. Thank you very much.
    [The statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    Mr. Chairman, I thank you for convening this important hearing 
today regarding holding the Department of Homeland Security accountable 
for security gaps. I would also like to welcome our witness today, the 
Honorable Michael Chertoff, Secretary of the Department of Homeland 
Security.
    The purpose of the hearing today is to receive testimony from 
Secretary Chertoff regarding his tenure as the Secretary of the 
Department of Homeland Security and his plans for the future of the 
Department during the time remaining in this Administration. Under the 
Homeland Security Act of 2002, The Department of Homeland Security and 
its Secretary are responsible for preventing and deterring terrorist 
attacks and protecting against and responding to threats and hazards to 
the nation. In examining the performance of the department, several 
pressing and critical issues rise to the surface. Along with the 
progress the Department has made under Secretary Chertoff?s leadership 
I remain very concerned about several critical issues which have not 
yet been resolved.
    First and foremost, no organization with a mission as critical as 
the DHS with a mandate to protect our citizenry from terrorist threats 
can afford to have a vast number of critical vacancies which still 
exist at DHS. In addition to the high critical vacancy rate, an issue 
of particular concern continues to be the number of important programs 
that have not met their deadlines. Also, recognizing that the need to 
stay ahead of the terrorists requires intelligence capabilities, one of 
my concerns regarding the Department is that while it develops 
intelligence and data-sharing capabilities, it should try to stay true 
to our essential American values such as preserving the privacy of our 
fellow citizens.
    With regards to the critical vacancies continuing to exist at DHS 
and affecting its mission, the July 9, 2007 report of the Majority 
Staff of the Committee on Homeland Security entitled, ?Critical 
Leadership Vacancies Impede United States Department of Homeland 
Security? found that nearly one quarter of the senior leadership 
positions located in the Department of Homeland Security are vacant.
    According to the report as of May 1, 2007 there were 575 senior 
leadership or ``executive resource'' positions at DHS1. One-hundred and 
thirty-eight of these were vacant (24%).
        <bullet> 48% leadership vacancies at the Asst. Sec. for Policy
        <bullet> 47% leadership vacancies at the Office of Gen. Counsel
        <bullet> 36% leadership vacancies at the Asst. Sec. for 
        Intelligence
        <bullet> 34% leadership vacancies at US Citizenship and 
        Immigration Services
        <bullet> 31% leadership vacancies at FEMA
        <bullet> 31% leadership vacancies at ICE
        <bullet> 29% leadership vacancies at the Coast Guard
    The report brings to the surface another unsettling pattern by 
establishing that an unusually high number of critical positions at DHS 
are filled by political appointees rather than career professionals. 
The quadrennial Plum Book by the Office of Personnel Management, states 
that ?as of September 2004 the 180,000-employee Homeland Security 
Department had more than 360 politically appointed, non-career 
positions. These political appointees serve at the pleasure of this 
President. Therefore, at the conclusion of this Administration, each of 
the positions currently filled by a political appointee will become 
vacant. It is possible and in many cases preferable to have employees 
in career civil service position fill these executive level positions. 
For instance by way of contrast, the Veterans Affairs Department--the 
government's second-largest department, at 235,000 employees--had only 
64 executive level political appointees. And the Defense Department--
far and away the largest department in the government, at 2.\1\ million 
employees, including military and civilian--counted 283 appointed, non-
career positions. That figure includes political appointees at the 
Army, Navy, and Air Force. Inexplicably, instead of seeking to reduce 
this over-reliance on political appointees, DHS' own reports show that 
since 2004, it has often added more political positions to its ranks, 
and more frequently, than other large departments.'' \2\
---------------------------------------------------------------------------
    \1\ The terms ``senior leadership and executive resource'' refers 
to those positions in the highest salary bands of the Federal 
government.
    \2\ ``Homeland Security could face transition problem'' by Shane 
Harris, National Journal June 1, 2007
---------------------------------------------------------------------------
    I should note that the types of jobs filled by political appointees 
are of a critical nature. However, with an eye on the inevitable 
transition from the current administration to the next, the critical 
mission of the Department could be secured only if the department has a 
solid foundation consisting of career civil service professionals. I am 
concerned that with such a high ratio of political appointees with deep 
professional roots in the homeland security field, the American public 
could be made more vulnerable by the heightened disorganization and 
dysfunction caused by the precipitous departure of the current 
inordinately high number of political appointees.
    Another issue of great concern to me is the great number of 
critical DHS programs that have missed their deadline for completion. 
The inability of DHS to deliver on time with regards to such critical 
items as providing a strategic plan for detection of explosives at 
airports or missing the February 2007 deadline to create the DHS Office 
of Emergency Communications certainly reveals the Department?s security 
gaps that Congress and this Committee has ht to address.
    Similarly, the inability of DHS to make progress regarding vital 
homeland protection programs such as SEAL (Container Security and 
Procedures) and the National Response Plan, aimed at all-hazards 
approach to manage domestic incidents, suggests that the Department is 
not doing enough to protect the American public from very real threats.
    As I have spoken in this Committee and the Committee on the 
Judiciary, while intelligence gathering is a critical tool in our 
efforts to combat terrorism, we must not sacrifice our American values 
in the process, especially constitutionally protected rights of 
privacy.
    Given the unprecedented amount of information Americans now 
transmit electronically and the post-9/11 loosening of regulations 
governing information sharing, the risk of intercepting and 
disseminating the communications of ordinary Americans is vastly 
increased, requiring more precise--not looser--standards, closer 
oversight, new mechanisms for minimization, and limits on retention of 
inadvertently intercepted communications. I have expressed these 
concerns during our recent debate about FISA and share them with you 
here now in the context of our discussion focused on DHS. The mission 
of the DHS will not be properly executed, unless all safeguards are in 
place when it comes to preserving our fellow citizens' fundamental 
rights to privacy which are increasingly encroached upon, I am afraid, 
by an aggressive expansion of DHS' intelligence sharing and data-
sharing capabilities.
    Thank you, Mr. Chairman, for holding this hearing. I look forward 
to Secretary Chertoff's testimony. I yield the balance of our time.

    Secretary Chertoff. I agree with you, general aviation is a 
concern. And in particular, we draw a distinction between 
aircraft that are, I think, 12,500 tons and those that are less 
than that. There is a certain cutoff because of the danger that 
the aircraft itself with the fuel could become a much more 
effective weapon as opposed to a smaller thing like a Piper 
Cup. What we are looking to do is begin with the biggest 
threat, which is a possibility of somebody smuggling something 
in from overseas.
    We do have, through TSA, an ability to use security 
directives to tighten up on security at airports. And we are 
also looking at the possibility of some additional regulations 
with respect to vetting crews and who are flying in private 
aircraft, particularly in the larger private aircraft. Again, I 
mean, there seems to be a proliferation, particularly in very 
small light aircraft, and we are going to have to draw the line 
somewhere between aircraft that are a serious threat because of 
their size and their weight of their jet fuel and aircraft that 
are sufficiently light, like that unfortunate plane which had 
the incident in New York last year with Cory Lidle, where if it 
was a hidden ability, it would be bad, it wouldn't be a 
catastrophe.
    On the TWIC card, I can assure you traffic tickets are not 
a disqualifier. The regulation we put out does list the crimes 
that are disqualifying. Some of them are disqualifying for life 
like treason or terrorism. Some of them are disqualifying if 
you have been convicted or served a sentence within a certain 
number of years. Some of them are not disqualifying. By way of 
example, there was a recent incident where, I think, a trailer 
truck overturned on an overpass in San Francisco and caused 
damage to the bridge. And it turned out to the driver had some 
old drug conviction and then some people said well, why did you 
let this person drive? Why can they get a commercial driver's 
license?
    Again, I have to say we are going to have to balance. We 
are not going to treat every misdemeanor drug possession as a 
disqualifier. On the other hand, if someone has been a 
racketeer, they are not getting on the docks. So we are going 
to draw the line somewhere between those two. On the no match 
issue, I actually--obviously we have got a legal case here 
which I think may delay us a little bit.
    I am convinced that this is not going to be a problem for 
legitimate workers. In fact, for people where there is a 
clerical error, it is going to be to their benefit to find that 
out and correct it so that they don't wind up 20 years from now 
not getting benefits they are entitled to. The larger question 
you raise is what is going to happen in those industries where 
it turns out that there is a lot of illegals being employed? 
And the answer is that is going to be a hardship. And I don't 
think I have been--I think I have been pretty open in 
acknowledging that fact. But here is what I can't do. I can't 
not enforce the law. We have told--we told Congress frankly you 
ought to find a way to address this issue.
    Congress has not yet acted. The one thing I can't do, and I 
think this is the root of the problem we have had over the last 
20 years is for us to simply close our eyes to the problem and 
get everybody off the hook by not enforcing the law. And then 
what happens is people turn to the agencies and they say the 
agency is derelict in its duty, the agency is failing. It is 
not fair to my agents to put them in that position. I have to 
tell my agents, I am going to support you in enforcing the law 
100 percent even if it turns out there is going to be some 
negative consequence.
    Secretary Chertoff. In the end, I think we are going to 
find this issue of immigration reform is a matter that has to 
be revisited, and I hope that it can be revisited. I don't 
claim to have the perfect solution. I hope it can be revisited 
sooner rather than later. In the meantime, we will carry out 
our oaths to execute the laws.
    Ms. Jackson Lee. Mr. Chairman, my last sentence simply is 
comprehensive immigration reform should be called upon by the 
administration, you should take the lead because what you are 
doing is destroying innocent families caught up in the illegal 
immigration, undocumented immigration system and probably 
undermining huge numbers of small businesses. And I yield back.
    Chairman Thompson. Thank you very much. We now yield 5 
minutes to the gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome back. I am glad to see you. I understand in your 
earlier testimony--I just came from the Armed Services hearing. 
But I understand that you had already testified to the border 
patrol training status.
    Secretary Chertoff. Yes.
    Mr. Rogers. We, according to your testimony, now have over 
14,000 trained border patrol agents.
    Secretary Chertoff. That is correct. We have sworn in over 
14,471.
    Mr. Rogers. And I understand further that your testimony 
was that within 16 months, at the end of 2008, we are going to 
hit the threshold of 18,003 that you have been targeting.
    Secretary Chertoff. Correct.
    Mr. Rogers. That is admirable. I am pleased to hear that. 
That is an area I paid a lot of attention to and I hope that 
you are you right and you all hit that target.
    But what I want to talk to you more specifically about 
today is canines. You have talked to this committee before 
about that and you have already expressed your respect for that 
asset and its efficiency and effectiveness. As you are probably 
aware, in the 9/11 Commission Act that we passed and was signed 
into law by the President, it requires the establishment of a 
national explosive detection canine training team and gives you 
180 days to get that set up and begin producing these dogs. Do 
you know where that program is at present?
    Secretary Chertoff. I don't. I do have to obviously say, as 
you know, money has to be appropriated in the 2008 fiscal year 
for this. So we don't yet have a bill. So obviously all this is 
contingent on Congress appropriating the money. Other than 
that, in terms where we are in the planning on that I would 
have to get back to you.
    Mr. Rogers. If you would. One of the things that I found in 
my visits to the various border ports of entry is that we are 
grossly understocked in canine assets. And because of that 
rotation of the dogs on and off, many of the spotters watching 
folks come across the border are able to alert their clients as 
to when is a good time to come across. So that is not 
acceptable. But we also found recently when I went down to 
Mississippi for a field hearing that they don't have enough 
cadaver dogs either in service.
    One of the things I would urge you to consider is in 
addition to explosive detection dogs and of course dogs that 
can detect drugs we could look at cadaver dogs as well. As you 
know, post-Katrina, 9/11, the various hurricanes, we always 
have a need for this and we can establish some real 
partnerships with local governments to maintain them, be called 
into service when necessary.
    From my understanding, these are very inexpensive dogs to 
train. They don't require the same sophisticated breeds, which 
brings me to the second point. And that is, in touring the 
various facilities around this country and seeing the teams, 
both in the Department of Defense and in Homeland Security, I 
find that most of the dogs that we have in service are obtained 
from overseas. We don't have a sufficient level of breeding 
programs here domestically. These dogs are brought in primarily 
from Germany and Holland and places such as that. And we urged 
in the bill that you all try to find ways to obtain an adequate 
source but also look at possibly establishing domestic breeding 
programs.
    Is that something that you would feel comfortable pursuing, 
given that we have an over reliance of foreign sources for 
these assets?
    Secretary Chertoff. First of all, I have a high opinion of 
the dogs and I would be, again subject to appropriations, happy 
to see what we can do to increase the supply. I recognize that 
not all the dogs succeed in training so you have to breed more 
than you can deploy. Time and again they seem to be in terms of 
reliability, portability and usefulness, about the top of the 
line on a whole variety of functions, human smuggling, as well 
as explosives and things of that sort.
    So I would certainly be interested in pursuing whatever we 
can legally do. Some of this would be the Department of 
Agriculture, to promote breeding of these dogs.
    Mr. Rogers. Within your TSA organization, you have got some 
pretty sophisticated technology research going on at Lackland 
and there is other research going on domestically. But I am 
concerned about the fact that we are relying so heavily on 
foreign imported dogs and that frankly many of our allies in 
Europe are also. And that is just not prudent in my view.
    I want to change gears. Recently, Chairman Carney and I had 
a field hearing on agriterroism in Pennsylvania and we had the 
Department's chief veterinarian testify before us. And we were 
concerned at the fact that he only had one full-time employee 
beside himself in there and some pretty aggressive planning and 
policy making goals set before him. And I understand that by 
2010 he is to have 37 people. I know the challenges you have in 
getting personnel into the Department. But can you speak to 
this specific instance and what you think you can do to step up 
that personnel?
    Secretary Chertoff. The foundation for setting this up--and 
let me lead by saying we recognized early on that we needed to 
have a focus on health and that involved not only human health 
but animal health and food safety which tend to be linked 
together. Now obviously the real expertise is in the Department 
of Agriculture and the FDA. But we needed to have our own 
capability, particularly through a system which is the 
integration of all of the intelligence. We now have an Office 
of Health Affairs set up. We put a veterinarian as the number 
two. And again subject to appropriations, and we have asked for 
a budget for this year that would grow that office. We are 
looking to expand it, not because we want to supplant the 
Department of Agriculture, because in doing our planning and 
coordinating for incidents we want to make sure we have enough 
in-house expertise so we can do it in an intelligent way. At 
the same time through our Operations Coordination Division and 
the President's Incident Management Executive order, we do have 
Department of Agriculture and HHS expertise on issues like food 
and animal health participating in our integrated planning and 
our incident management if we have an incident. So we can draw 
upon those existing resources to supplement what we have.
    Mr. Rogers. Thank you, sir.
    Chairman Thompson. Thank you very much. We now recognize 
the gentleman from Pennsylvania for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. Welcome, Mr. Chertoff. 
Good to see you again. Back in February the Comptroller General 
and the Department's IG testified to Congress about 
difficulties they were having in getting DHS to cooperate with 
their work and response requests in a timely manner. In fact, 
my subcommittee investigated these allegations. And Mr. Rogers 
and I held a hearing in April to address these concerns. Your 
Department committed then to rectifying two of the GAO's 
primary concerns, the difficulty in getting access to documents 
and to program officials. Yet we are here almost 5 months later 
and the GAO has reported to my subcommittee staff that at the 
day-to-day level, nothing has improved. Even worse, at the 
senior level DHS appears now to be refusing to address the two 
primary difficulties they had previously committed to fixing. 
In fact, the nonpartisan GAO says of all of the Federal 
agencies and entities it deals with, DHS is by far the worst 
when it comes to cooperation and timeliness.
    Perhaps, Mr. Secretary, when you meet with the Gang of 
Seven on your weekly meetings--I think it is a great idea by 
the way--you could please bring this up. I mean, it is 
imperative that we do our job and you have to help us in that. 
And timeliness and the cooperation is essential. So I would 
like to ask for your assurance that this is going to happen, 
sir.
    Secretary Chertoff. I also have to say that if there is a 
particular issue that they have they are free to bring it to my 
attention. I am always a little surprised when I hear a 
complaint that comes in a roundabout way as opposed to somebody 
picking up the phone and calling me.
    Mr. Carney. We have your phone number. That is good.
    Secretary Chertoff. And as far as the Controller General, 
if he has an issue about a particular matter.
    Mr. Carney. Good. Okay. We will remind him as well that 
they can call. Also, I was surprised to see no mention in your 
testimony of the upcoming TOPOFF exercises, TOPOFF for--we know 
that large scale exercises like TOPOFF IV generate lots of 
experiences and lots of insights and lessons learned. Certainly 
from my background in the military we call that--my 
understanding is that the after action report for TOPOFF III 
was completed about 6 months after the exercise; is that 
correct?
    Secretary Chertoff. That sounds about right.
    Mr. Carney. Yet it took another year at least for your 
office to review and to approve it for release. I checked with 
committee staff yesterday and they still haven't received a 
report.
    Secretary Chertoff. I will find out where that is. The 
reason I didn't mention TOPOFF was not because it is not 
important, it is because there is a limit to what you want to 
read about in my testimony. Not only do we think these are 
important, but I personally participate in these and I 
encourage my Cabinet colleagues to do it and the President 
encourages them to do that because we do recognize the value of 
these exercises. I will find out where it is in the process.
    Mr. Carney. Great. Because TOPOFF IV is right around the 
corner and we would like to have them in a timely manner, again 
those reports and the insight and the lessons learned, et 
cetera. We all have a job to do and we have to cooperate and 
make sure we protect this Nation, sir.
    Secretary Chertoff. I agree with you.
    Mr. Carney. I appreciate your efforts. I yield back.
    Chairman Thompson. Thank you very much. I appreciate you 
assuming the responsibility of the calls from Members on 
reports, but as you know, most of those come forward with the 
timeline already in existence. And I think it would help us if 
you would, without the extra communication from us, just 
implore your people under you that these timelines are not 
going away and we have to meet them. That is what we are 
looking for.
    Secretary Chertoff. I have done that. Let me be clear. We 
have actually put a very focused effort on accelerating the 
pace of our response to congressional reports, and I think we 
are doing better because I have been tracking it. I think this 
was a much narrower issue having to do with GAO feeling that 
somehow they disagree with either how quickly we are responding 
or whether they agree or disagree with whether we are giving 
them the information they want. And as I was beginning to say, 
if the Controller General has an issue with this, he can call 
me. I am not hiding from him. I do direct that we cooperate. 
And I recognize sometimes GAO wishes we didn't have lawyers 
present. We feel we need them present and that is a 
disagreement. But I was not aware there was a particular 
problem or general problem with what they perceived as 
cooperativeness, and if the Comptroller General wants to raise 
that issue he should say to me I have a problem and be specific 
about it.
    Chairman Thompson. Chairman Carney would like to make a 
comment.
    Mr. Carney. Just briefly, Mr. Secretary. When we request 
and the committee actually requests from DHS some documents, we 
are told we have to go through a process. I don't know that we 
should have to do that, sir. We are the oversight committee and 
we should be able to see these documents, in fact, unredacted. 
I mean, we had that earlier. We just brought this up an hour 
ago or so. But still I think this is part and parcel to a 
larger problem, that you want the transparency and so do we 
certainly and then we must work toward that.
    Secretary Chertoff. I will find out about that issue.
    Mr. Carney. Thank you, sir.
    Chairman Thompson. Thank you very much. And we will follow 
up on that because in the interest of transparency, and Mr. 
Carney is chairman of the oversight committee, we need a 
reasonable time frame to get information and once committee 
staff on the majority or minority side request it, it is just 
like it is coming from the committee.
    Secretary Chertoff. I understand.
    Chairman Thompson. I will now recognize the gentleman from 
Washington for 5 minutes, Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. Mr. Secretary, good 
to see you again, thank you for being here. I just want to make 
a general comment to start out with.
    We had talked about lawyers and laws and policy and reports 
and hearings, all those things that we are all involved in. But 
really the bottom line is that when it gets down to doing the 
job the people in your organization are the people that we 
depend upon to do the job, and I know early on, a couple of 
years ago, when we began the discussion about Homeland Security 
in 22 departments and almost 200,000 employees, there was a 
morale issue. And I know that has been touched upon a little 
bit. I think Congress need to do a better job. Having you and 
your department report to 85 committees and subcommittees is 
ridiculous, and we need to do something about that. How is 
morale, though, in your organization today and are those 22 
departments finally coming together and looking at themselves 
as the protector of this Nation?
    Secretary Chertoff. Let me say, first of all, we have 
looked at the question of morale. It was kind of a negative 
report out a few months back. I asked management to do a more 
in-depth survey and try to understand what was positive and 
what was negative about morale. One positive statistic that 
came out more recently is apparently, putting to one side TSA, 
our turnover is lower than average of Federal departments and 
even TSA compares favorably with the private sector among those 
areas of industry that do the same kind of work. So that is 
positive. But I have made a big focus for management here to 
try to understand what we can do to build morale.
    As far as unity, though, I think there we have made a lot 
of progress. As I said earlier, we now plan to integrate across 
the Department. Our intermodal security team, our VIPR teams 
which began as a TSA operation where we brought people together 
to do surge security has now become a DHS-wide operation. 
Interestingly--since we are talking about the State of 
Washington--as a consequence of some of the issues with the 
ferry system, we put a DHS VIPR team, Coast Guard and TSA and 
FBI working jointly together, planned and executed in the 
Seattle ferry area. And we are--and increasingly the components 
themselves are finding opportunities to plan and train jointly. 
Customs and Coast Guard are now interoperable in a number of 
ports with respect to how they deal with ship boardings and 
things of that sort.
    Our airframe platforms for helicopters in Customs and 
Border Protection and Coast Guard are now the same. And through 
this so-called Gang of Seven mechanism, the chief operating 
officers of each of the components, or CEOs of each of the 
components, meet weekly with either the deputy and/or me to 
talk about common issues and common approaches.
    Finally, we have a management directive now that strongly 
encourages those who want to be applicants for Senior Executive 
Service to serve out of their component, either in a joint 
activity or in another component, as part of building their 
resume for the purpose of becoming an SES. This is a concept we 
borrowed from DOD through Goldwater-Nichols.
    Mr. Reichert. I am glad to hear that. I sensed that myself 
as I traveled around and visited the different fusion centers 
across the country, and I think there is a partnership that is 
very strong amongst the partners in the fusion center which 
makes up the Federal agencies, DHS included. You know, we in 
the King County sheriff's office use the Coast Guard platform 
for our helicopters. So there is a partnership there and I 
think as we look at the canines and further partnerships with 
locals, I think that would be a great opportunity for us.
    But just if I could touch on one more thing, Mr. Chairman. 
In H.R. 1, we allowed the States and localities to use Homeland 
Security grant funding for hiring intelligence analysts. Is 
that program moving along? Where do you see that today and into 
the future, here in the near future?
    Secretary Chertoff. Well, we will allow use of Homeland 
Security money to hire intelligence analysts and we are also 
embedding--we are looking ultimately to have between 20 or 30 
of our own analysts embedded in fusion centers around the 
country and we also we have developed a fellowship where we are 
bringing law enforcement people from State and local government 
into DHS not to simply represent their community, but to 
actually work here for a period of time and get the benefit of 
the experience and the expertise they develop here before they 
go back. So I think--I mean, the best value we can get in terms 
of particularly detecting homegrown threats is to enhance the 
capabilities of State and local intelligence gathering so that 
they can detect the kind of thing that we won't pick up with a 
satellite or overseas communications.
    Mr. Reichert. Thank you, Mr. Secretary. And thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you very much. We now recognize 
the gentleman from North Carolina for 5 minutes, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Thank you, 
Secretary. Welcome. With an agency so broad and so diverse and 
so much to take care of, I commend you. It is difficult. But I 
want to shift a little bit because all of the issues are 
important. We are in the midst of hurricane season, another 
major area of your Department. And right now we just missed 
Dean hitting Texas and Central America is being devastated 
again by the second hurricane, Felix.
    Can you share with us briefly, Mr. Secretary, as a result 
of the high alert that FEMA went on in DHS as related to Dean 
in the wake of the near miss after the fiasco of 2 years ago 
where we--what our preparedness was then and what gaps do you 
think still remain in our preparedness. Because there is 
another disturbance now churning in the Caribbean that could 
very well turn into one that we might not miss next time.
    Secretary Chertoff. This is my least favorite time of year 
now. I think Dean was actually a good exercise in terms of 
where we are and to take us out of the realm of simply planning 
exercise and training and into the realm of actual operations. 
What we did during the period of time when we thought there was 
a real risk of Dean hitting south Texas is we worked--first of 
all, the President authorized a pre-disaster declaration so we 
could fund prepositioning of items in advance of the hurricane. 
That was not an authority that existed or was exercised 2 years 
ago during Katrina.
    The second thing that we did was we had partly through some 
prior work with the Texas emergency authorities quickly 
identified gaps that they had in terms of capability to 
evacuate people with compromised medical positions, making sure 
they had adequate buses for people who didn't have 
transportation, making sure we had an airlift plan for people 
that we wanted to be able to move further away. And we actually 
were able to either preposition or have readily at hand the 
assets necessary to do all of that work. And we kept them in 
place until the point in time it came that we were confident 
that this storm was not going to hit and then we released them.
    So that was a good exercise and frankly a pretty dramatic 
illustration of the benefit of advanced planning which we did 
not have 2 years ago. So I think those capabilities are there. 
We did move into place communications equipment as well as 
interoperable communications equipment, mobile communications, 
trucks and those, of course, have now been returned to where 
they are typically housed, Thomasville, Georgia, or elsewhere.
    So I think it was a good fire drill. No doubt--as they say, 
no battle plan survives first contact with the enemy. But I 
think it is a much better plan than it has ever been.
    Mr. Etheridge. I would like to ask you about the FEMA 
Reform Act which passed Congress overwhelmingly. How would you 
assess the Department's progress in implementing those reforms, 
and I am particularly interested in the Department's ability to 
make those changes with--in connection with how DHS is going to 
implement the 9/11 Commission that the President signed last 
month? Because all of these things coming together at once, I 
know you can, as someone said, you can swim and talk too, but 
we need to make sure this is so critically special when this 
season is at its highest level right now.
    Secretary Chertoff. There is no question we had a little 
bit advance sense of the FEMA Reform Act. So we did put some 
preparation into effect to do the transition. As I said 
earlier, we are over 95 percent fully staffed at now FEMA. We 
have permanent people heading each of the regions. We have got 
GOG planners in the regions.
    So I do think we have got that implemented. And the 9/11 
reforms will be another challenge. We are going to get that 
implemented too. But I guess underlying the question is you are 
accurately recognizing that every time we have a reorganization 
there is a cost in money and time. And it is easy to always say 
every time there is a change, oh, let us reorganize again. I 
think we are at the point now where we would benefit greatly 
from a pause in organizational churn to allow us now to not 
only implement, but to really get people acclimated to the 
current structure, which is a good structure. I am not saying 
it is the best of all, but I think it is good and it needs a 
chance to work.
    Mr. Etheridge. I will close, Mr. Secretary, and I will say 
as you look at the number of vacancies across the Department 
along with the political appointee vacancies, I would encourage 
a lot of attention be paid to that in the months and time to 
come so that at the end of this term of the President there is 
not a big gaping hole as we try to continue to make an agency 
work in the broad section it has to work with. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much. We now recognize 
Mr. Brown of Georgia for 5 minutes.
    Mr. Broun. Thank you, Mr. Chairman. Mr. Secretary, we 
haven't had the opportunity to meet yet. I am Paul Broun from 
Georgia.
    A few moments ago you were talking about the illegal 
aliens. In your testimony you said you changed from having a--
excuse me--You have changed from having a catch and release 
program for the non-Mexican aliens to catch and remove. Now, 
does that mean that you are still doing the catch and release 
type program for the Mexican aliens?
    Secretary Chertoff. No. First of all, as you say this is at 
the border. Mexican aliens--we have always removed them because 
it is really something we do in 24 hours. You catch them, you 
fingerprint them, you photograph them and you send them back. 
The problem with catch and release came because non-Mexicans--
we couldn't just put them back across the border in Mexico. We 
had to send them back to their country of origin. And it took 
so much time to arrange that that we ran out of bed space. So 
what we did was we cut the amount of time to remove people, 
increased the number of beds, we managed the beds more 
effectively, and that allowed us to get to the point that now 
everybody caught at the border who is eligible to be removed is 
detained until their removal occurs.
    Mr. Broun. So this is all illegal aliens, they are removed 
immediately?
    Secretary Chertoff. Right.
    Mr. Broun. The next question is under the interpretation of 
the 14th amendment babies of illegal immigrants that are 
delivered here in this country, the so-called anchor babies, 
are being given citizenship. Do you believe that this amendment 
is being interpreted correctly? And then second, do you believe 
that legislation like the Birthright Citizens Act that I am a 
cosponsor of would have a measurable impact on decreasing the 
magnet for these people to come here?
    Secretary Chertoff. I can't say I have studied the law 
enough on this to give you a legal opinion. I will say that one 
of the issues when we debated comprehensive immigration reform 
that we did focus in on as part of the proposal was this issue 
of whether people would try to have children in the country in 
order to bring extended families in. And the suggestion we had 
was to actually transition the system from one that is based 
principally on family relationships to one that is based on 
work or other considerations.
    So as you look at this issue, the question may be not so 
much whether you legally can affect citizenship or people born 
in the U.S., but whether you extend the privilege to someone 
born in the U.S. of the legal parents, whether you extend them 
the privilege of bringing in their family as under the existing 
immigration laws. That isn't a 14th amendment problem. I think 
that is just a question of how you write the immigration laws.
    Mr. Broun. Well, in my opinion, first thing they shouldn't 
be granted citizenship to begin with. I think this is an 
improper application of that amendment. And hopefully one of 
these days we will get the Birthright Citizenship Act put into 
law so that there won't be any question. But I believe it is, 
at least in my area of Georgia, a strong impetus to bring 
people into this country illegally. And these people are 
draining the health care system. I am a medical doctor and I 
know the health care system is being drained tremendously in 
our area. The educational system is being drained tremendously. 
And I hope that the administration will help to promote the 
Birthright Citizenship Act so we can bring a legal 
determination of this and stop this flow of these illegal 
aliens into this country.
    Mr. Chairman, I thank you and I yield back.
    Chairman Thompson. Thank you very much, Mr. Brown. We now 
recognize Mr. Green of Texas for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. And I thank you, of 
course, and the ranking member for hosting this hearing. It is 
exceedingly important. Mr. Secretary, it is an honor to see you 
again. And I know that you have a tough job and I would like to 
talk to you for a moment, if I may, about some deadlines and 
timelines. In fact, timelines can become deadlines or they can 
be lifelines and I have before me a document that if we were in 
court I would say do you recognize this and can you tell me 
what it is.
    Secretary Chertoff. I see it up here. I haven't gotten my 
copy yet.
    Mr. Green. Having an opportunity to see it before, I 
suppose I could share this one with you.
    Secretary Chertoff. I actually can't read it.
    Mr. Green. May I approach, Mr. Chairman?
    Chairman Thompson. Please.
    Mr. Green. In court I say Your Honor.
    Chairman Thompson. You may approach.
    Mr. Green. Thank you. I have checked off items 3, I 
believe, and 4. And I would like to as a predicate indicate 
that there is an adage that one must plan one's work and work 
one's plan and a corollary of this adage is a failure to plan 
is a plan to fail. Number 3 on the checkoff list which is 
styled, I believe, the Chertoff checkoff list, Number 3 on that 
list deals with the NPR, National Response Plan. And for 
edification purposes, there was a deadline or timeline I 
believe of initially June 1, 2007 that was extended to July 
1st. And it is my belief that we still do not have a final 
National Response Plan in place. The National Response Plan is 
of vital importance, as you and I will agree, because it 
coordinates the efforts of the State, the local, the tribal 
governments and the private sector if we should have a 
dastardly deed perpetrated by some human or if we should have a 
national disaster comparable to Katrina, which we just 
celebrated the second anniversary of.
    So the question that we have to embrace, Mr. Secretary, is 
that of the timeline and what assurance do we have that we can 
have a timeline that we can be assured of?
    Secretary Chertoff. First, let me say we actually do have a 
national response plan in effect currently as we speak. We 
updated it and retooled in light of Katrina in 2006. That 
remains in effect. The new national response plan which we 
actually called the National Response Framework, we completed 
the draft about a month or so ago. We circulated it--this was 
the product of a lot of work among State and local 
stakeholders. We then wrote it up, circulated a draft, received 
comments and I expect the final version to be circulated this 
month. It will not immediately become effective, of course, 
because once you issue the plan or the framework, people have 
to then train to it and exercise to it and we don't want to 
actually do that in the middle of hurricane season. So 
everybody has been told if the existing NRP remains in full 
force and effect through this hurricane season, the new 
framework will come out this month and then people can train 
and exercise to it for next----
    Mr. Green. If I may, Mr. Secretary, am I to assume that the 
end of this month, which, of course, is September, at the end 
of September, we will have the new plan that we were--we were 
indicated would occur--indicated to us would occur in July and 
then before that June?
    Secretary Chertoff. Yes.
    Mr. Green. Now, moving to another topic if I may. The TWCC 
cards. Some of our friends in labor have some concerns about 
the TWCC card. One concern is the cost, of course, and the 
second is who will bear the cost. But more importantly, the 
whole concept of one accepting the responsibility for the cost 
and how this will in the long run impact one's commitment made 
because many times we start out anticipating that we will pay 
an initial cost, but then other things are added on to it and 
what became a cost for a card becomes a cost for a number of 
security measures. Will the TWCC card first of all be--the 
ports be announced to us at any time soon, what 10 ports, and 
will this be just the first of many fees that will be imposed 
upon workers?
    Secretary Chertoff. I don't think it will be the first of 
many fees. We are going to start issuing these cards beginning 
I think in Wilmington, Delaware this fall. We should have 10 
ports done by the end of this calendar year.
    Mr. Green. Quickly I will say this. Much is said about the 
southern border, but much also should be said about the 
northern border. The 9/11 hijackers did not come in through the 
southern border. The Millennium bomber did not come in through 
the southern border. Mr. Ressam had his foray into Europe and 
decided he wanted to covertly come back into the country. He 
did not come in through the southern border. Northern border. 
At some point I think we have to make it abundantly clear to 
the public that the southern border, while it is important, it 
is not the border of paramount importance to the exclusion of 
the northern border, to the exclusion of the Virgin Islands, 
which is the southernmost border.
    So if you would quickly, tell me how do you plan to handle 
the northern border and how do we plan to let the public know 
as well that the northern border has a great importance to us?
    Secretary Chertoff. I couldn't agree more. I think that we 
do have to be mindful of the northern border and I say that 
recognizing that Canadians have been great partners on law 
enforcement and intelligence. That is why we have been very 
aggressive with the Western Hemisphere Travel Initiative, to 
make sure we do have secure documentation for people who are 
coming through our ports of entry. We have put more assets up 
on the northern border. Now, the flow in the northern border 
tends not to be between the ports of entry but through the 
ports of entry. But we do find that--for example, I think Peace 
Bridge in Buffalo has the highest number of terrorist watch 
list hits of any land port of entry, meaning people that we 
pick up and we send back. So although I think the strategy in 
the northern border may be a little different than the 
Southwest because of the flow between the ports of entry, the 
security concern is every bit as important. And that is why 
even though we get pushed back sometimes frankly from some of 
the communities in the north, we are insistent on continuing to 
raise security measures on the northern border as well.
    Mr. Green. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Thompson. Thank you very much, Mr. Secretary. 
Since you mentioned the Peace Bridge in Buffalo, we are going 
to give the lady who knows more about it than probably anybody 
else here, the gentlelady from New York, Mrs. Lowey, for 5 
minutes.
    Mrs. Lowey. Thank you very much, Mr. Chairman. I want to as 
this hearing winds down express my appreciation to the chairman 
for holding this hearing and the fortitude of our Secretary and 
all of us who are here to pursue these very important issues. 
So I thank you very much.
    Before I get to my question, which concerns FEMA and Indian 
Point in Westchester County--and we can talk about the Peace 
Bridge another time. I just wanted to review again--and I am 
glad that you have the to-do list, because as an appropriator, 
I know firsthand that all of these items on the list have been 
funded adequately and we are concerned that there is still 
critical vacancies at the Department that should not exist; 
two, the container security standards and procedures should be 
put into place immediately. There is funding for it. There has 
been mention by my colleague of the National Response Plan or 
Framework. This is really serious because as you know not only 
do many of the Federal agencies not have the plan, State and 
locals don't have a final plan. And if you are expecting them 
to follow certain routines, they should have the final plans. 
And this has been discussed. I won't go into it again. I would 
hope this can be concluded immediately.
    Also there has been mention of the TWCC cards. I just want 
to say in my contact with current workers at the port they are 
very concerned about bureaucratic problems. They are very 
concerned as to the speed of an appeal process. So I think it 
important that we move ahead on this issue. Again, this has all 
been funded. And there must be a strategic plan for explosives 
detection at passenger screening checkpoints as required by the 
9/11 bill. I am very concerned about this issue. My 
constituents are very concerned about this issue. Again, there 
has been funding for this.
    And lastly, I would hope that you could properly implement 
the US-VISIT programs and Project 28, which has been referenced 
by our Chair. I don't understand why this is taking so long. 
But since I want to get to FEMA and Indian Point, we can 
discuss this at another meeting. We certainly can't complain 
that delay in implementing these programs is for the lack of 
proper funding. As you know, they have been funded.
    So with regard to Indian Point, FEMA, which is under your 
jurisdiction of course, has a role in reviewing emergency plans 
for nuclear facilities. And this is of particular interest to 
me as an incident at the Indian Point nuclear facility located 
in New York metropolitan area could adversely affect 15 million 
people living within 50 miles of the plant. Entergy Nuclear 
Northeast owns and manages the plant. They missed three 
deadlines to provide FEMA with information to test its warning 
sirens. And I won't go into all of the other problems at this 
plant. Most recently the person in charge of the command post 
was found sleeping. There have been leaks, real problems there. 
But this is related to FEMA and the sirens. This is just 
unacceptable.
    Last month I wrote a letter to FEMA Administrator Paulison 
urging an expedited review of operational data related to the 
emergency notification system at Indian Point after Entergy 
finally submitted the information. And this is just one recent 
example of FEMA allowing Entergy to operate a nuclear facility 
without adequate emergency planning. Former FEMA Director James 
Lee Witt, the State of New York and local emergency managers 
have asked FEMA not to certify Entergy's emergency plan but 
FEMA has inexplicably certified its response plans allowing it 
to continue to operate.
    To me this is a failure of leadership and an utter 
disregard for the safety of the community. FEMA and the Nuclear 
Regulatory Commission should not allow a nuclear plant to 
operate if none of the surrounding jurisdictions have 
confidence in emergency response plans and if the plan has no 
way of warning its employees or the general public of a 
possible disaster.
    If you can tell me, why does FEMA certify emergency 
response plans for a nuclear plant such as Indian Point when 
those charged with implementing the plant have no confidence 
that they will be affected?
    Secretary Chertoff. I am going to have to take up with 
Administrator Paulison exactly what the sequence is with 
respect to Indian Point. Obviously in certifying plans, the 
capability of warning is an important element of the plan. I 
don't know how Indian Point satisfied FEMA on that point if 
they did. I will have to get back to you on that.
    I do want to make sure, though, I make one point clear so 
there is no misunderstanding. There is a national response plan 
that is final and in effect as we speak. It is the plan that is 
currently in existence. The new plan which is coming out this 
month will not be effective immediately because we will have to 
train and exercise to it. But I don't want anybody in the 
emergency management community to be under any illusion. If 
tomorrow we had an event there is a national response plan 
which everybody has, has trained to and exercised to, and until 
such time as a new plan becomes effective that is the final 
plan that is in effect.
    It is the same way as when you pass a new law, you know, 
the old law remains until the new law is effective. So I don't 
want anybody to be confused in the community out there.
    Mrs. Lowey. Well, if we can get back to FEMA, or if you'd 
rather get back to me on that, that would be fine.
    Secretary Chertoff. I will on Indian Point. Let me get back 
to you on that.
    Mrs. Lowey. Again, on the issue of the emergency response 
plan, there seems to be some confusion, certainly in the 
reports I am getting from State and locals. So thank you for 
clarifying. I would hope the word can get out.
    Secretary Chertoff. We will push that word out.
    Mrs. Lowey. One other point. On September 11th, American 
Airlines Flight 11 flew over Indian Point en route to the World 
Trade Center. And in 2002, al-Qa'ida stated that a nuclear 
plant was initially set as a target. In 2003, former FEMA 
Director James Lee Witt wrote an independent report that found 
major deficiencies in the emergency preparedness plans in this 
facility, Indian Point. That is why I have introduced 
legislation with my Hudson Valley colleagues that would grant 
DHS the authority to declare a no-fly zone over Indian Point. 
Now, this would extend the same authority DHS has to implement 
no-fly zones for special events such as the Super Bowl to 
nuclear facilities. It seems to me if you can do it for the 
Super Bowl, you can do it for the nuclear facility.
    Do you consider the operations of a nuclear facility in the 
most popular region of the country a risk worthy of examination 
by DHS?
    Secretary Chertoff. I think of all the sectors we deal with 
in infrastructure protection, certainly the top tier things to 
worry about are nuclear facilities now. A lot of that work is 
done through the Nuclear Regulatory Commission which we treat 
as the government lead on this, but we--I have had, myself and 
others, have conversations with the NRC leadership to make sure 
that in terms of issues like design and required safety 
measures, they are constantly upgrading what they do. Because I 
do agree that--although I think it would not be the easy thing 
to attack or destroy a nuclear plant because of the measures 
already in place, this is an area where the consequence is so 
great we need to be a little more focused than we might be on a 
movie theater or restaurant.
    Mrs. Lowey. Thank you very much. I thank you for your 
generosity and I thank you for your comments, and I look 
forward to continuing the discussion on the items on the 
checklist and your review of a potential no-fly zone over 
Indian Point, again which affects 15 million people in a 50-
mile radius. And I thank you very much again. We are all aware 
of the tremendous responsibility you have, And I do hope you 
stay here too.
    Secretary Chertoff. Thank you.
    Mrs. Lowey. Thank you very much.
    Chairman Thompson. Thank you very much. I also have in my 
district, Mr. Chairman, an Entergy nuclear facility and I think 
Mrs. Lowey has kind of struck something that I would ask that 
you provide the committee with whatever compliance requirements 
that FEMA and DHS has in its authority for all of the nuclear 
plants we have in the country.
    Secretary Chertoff. We will do that.
    Chairman Thompson. Thank you. We are now yielding to the 
gentleman from Rhode Island for 5 minutes, Mr. Langevin.
    Mr. Langevin. Mr. Secretary, thank you for testifying 
today, for your patience. I know it has been a long morning. I 
know one thing is for certain, you have been waiting to get to 
my questions. And since I am last, I will be brief. I wanted to 
just say I basically agree with your philosophy that rather 
than trying to eliminate risk, that we need to basically try to 
reduce and manage it--that should be our strategy. As the 
chairman of the Subcommittee on Emerging Threats, 
Cybersecurity, Science and Technology, that has been my 
philosophy. I put it in terms of identifying those clear 
vulnerabilities and to then moving quickly to close those gaps. 
It would be difficult, if not impossible to protect against 
every contingency. I am pleased that you touched on in your 
testimony two of the things that concern me right now the most, 
and that is the issue of nuclear weapons or nuclear material 
potentially being smuggled into the country, and that is why we 
need to have the radiation portal monitors deployed as quickly 
as possible, making sure that they are operational. Also you 
addressed the issue of cyber security. So those are the two 
areas that I wanted to focus on.
    We have held several hearings in my subcommittee on the 
deployment of radiation portal monitors. I have great respect 
for the work that Director Oxford is doing. I have had the 
opportunity to travel to California. I have seen the radiation 
portal monitors in action. I recognize that it is vitally 
important that we both have the detection in place, that we can 
detect nuclear material if it is being smuggled into the 
country. Equally important, that we are not slowing down 
commerce or interfering with commerce. And it looks like we 
have a good plan in place. We are anxious, of course, to get 
the ASP deployed as quickly as possible, make sure that they 
obviously can do what they say they can do.
    That is--we wanted to go with my first question. I would 
like to discuss the certification process of DNDO's advanced 
spectroscopic portal program with you. This program is 
important to our nuclear protection capabilities and we must be 
assured that the review process is conducted with the highest 
levels of scrutiny. While I am supportive certainly of your 
recent decision to have techno experts from outside DHS conduct 
an independent review of the ASP program, I am concerned about 
a few aspects. Again as chairman of the subcommittee 
responsible for oversight of the ASP program, let me assure you 
that I don't intend at all to interfere with the investigation. 
However, it is essential that Members of Congress have 
information about the members of this panel, I believe, and 
their backgrounds and their qualifications.
    So my question and my comment would be by disclosing the 
makeup of the review panel, I believe you will increase the 
confidence the American public has in this process, as well as 
the committee itself. Would you please provide the committee 
with the list of members that make up this review panel? And if 
you can't provide the list now, can you assure us that you will 
do so by the end of the week? That is the first question.
    The second thing I wanted to ask is in May I, along with 
members of this committee, sent a letter to GAO requesting an 
independent review of the ASP program prior to certification, 
recognizing that GAO is going to be involved at some point. I 
am a big believer--before we go ahead in spending an enormous 
amount of money, $1.2 billion, let us hear what GAO has to say, 
let us dot our I's and cross our T's. As you know, we recently 
sent a letter to your office requesting that you consider GAO's 
findings in addition to the third party review that you 
recently convened.
    So to that point, do you intend to give equal consideration 
to GAO's findings and those of the third party panel of 
experts?
    Secretary Chertoff. First of all, I am not sure if every 
member of the third party panel has been selected. But as soon 
as they are selected, we will give you the names. I have no 
problem with that in the background. And I will certainly 
consider any findings from GAO along with the findings of the 
panel before I do a certification.
    Mr. Langevin. That is great news. By the way, for the 
record, we have been assured by GAO that they can do their 
review within a matter of weeks. We are talking in the order of 
2 or 3 weeks from what they tell us. I will insist that they 
are held to that because, like you, I want to get this ASP 
equipment deployed as quickly as possible. It is the right 
thing to do to protect America. And I appreciate the work that 
you are doing.
    The other thing I wanted to get to is the issue of cyber 
security. As you are aware, my subcommittee recently held a 
hearing on cyber security vulnerabilities at DHS. I was 
extremely disappointed at the Department of Homeland Security, 
the agency charged with being the lead in cyber security, had 
suffered so many significant security incidents on its network. 
In fact, DHS reported to the committee that it experienced 844 
cyber security incidents in fiscal years 2005 and 2006. Those 
incidents are occurring everywhere. And we have heard recently 
that yet again forge in hackers have infiltrated the systems at 
the Department of Defense just like they have done at virtually 
every government agency. When I asked if the Department's Chief 
Information Officer--who I met with in my office and we had 
testified reports--whether he received briefings on cyber 
threats, DHS information networks, particularly including cyber 
security vulnerabilities and penetrations at the Department of 
Defense and Department of State, meeting with his counterparts, 
his response basically was that you don't know what you don't 
know. And the question included cyber attacks by the Chinese. 
That is where my question was going. I will ask you the same 
question. Have DHS computers ever called or phoned home to 
Chinese servers, number one? And have you ever requested or 
received intelligence briefings about Chinese hackers 
penetrating Federal networks? And on a scale of 1 to 10, how 
concerned are you about this threat? And do you think that 
there needs to be more aggressive oversight and leadership in 
departmental management specifically to address these concerns?
    Secretary Chertoff. This is an area which is heavily 
intertwined with classified information. So I am limited in 
what I can say in this setting. Let me say this. I would say 
that starting earlier this year or late last year, as we were 
kind of looking at, you know, where we are in the Department, 
where we made a lot of progress, where we have progress that 
needs to be made in terms of our overall mission, the one 
significant area I was not fully comfortable with was cyber 
security. It is a very hard area to deal with. Since then, I 
and senior leaders with the Department have intensively been in 
discussion with other agencies in the government at a very high 
level about this whole issue and how we as a government as a 
whole can deal with it and what our strategy ought to be to 
pursue this, which we are currently in the process of 
developing, and doing it with a considerable amount of urgency. 
I can tell you it is an issue which receives consistent 
attention at the very highest levels of the United States 
Government. We are, of course, at the same time dealing with 
the old--the separate but not unrelated issue of integrating 
our own IT into a one-net structure and limiting the number of 
entry points in different systems, which I think will be good 
for IT management but good from also a security standpoint. So 
we have now within the Directorate of National Protection and 
Programs centered a program office to be focused with our Cyber 
Security Division on how to work with other agencies to take 
necessary steps to increase not only the protection of 
government computers from intrusions, whatever the source, but 
also to help the private sector with that as well. And it is a 
matter that we are going to focus on as one of the highest 
priorities or the highest priority level of the Department over 
the next 16 months.
    Mr. Langevin. I think it is one of those areas that falls 
into the category of clear vulnerabilities and something that 
we need to address in an aggressive and comprehensive way. And 
we look forward to working with you on that issue.
    Mr. Chairman, I know I have gone over my time, but since we 
are in the hurricane season, I have one more related to FEMA 
and evacuation plans if you would indulge me with additional 
time.
    Chairman Thompson. The gentleman requests additional time. 
Granted.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Secretary, my 
only question. On August 6, 2007, my staff met with FEMA and 
the Office of Civil Rights--Civil Liberties regarding FEMA's 
plans to provide evacuation plans for special needs 
communities. During this meeting it was revealed the FEMA 
disabilities coordinator, Ms. Cindy Daniel, that I had an 
opportunity to meet with myself, that she has not seen a draft 
of the National Response Plan that has been put together by the 
Department. First of all, would you make sure that she has seen 
this plan? This is a great concern given that we are in the 
height of this year's hurricane season right now. Can you 
please tell us the status of the Department's evacuation plans 
for special needs communities and the status of overall efforts 
to assure that special needs and disabled populations are able 
to effectively evacuate during a major event?
    Secretary Chertoff. First off, I will make sure if she 
hasn't already seen it that she sees the most recent annex 
draft for the new plan. We are working under the existing plan. 
But I will tell you this. There is probably no area of 
evacuation planning that gets more focused attention than the 
issue of special medical needs. I was just down at the Gulf 
last week. Starting September 1, as part of our emergency 
communication system, we now have capability to deliver warning 
messages to people with hearing impaired using modern 
technology on the computer. Every one of the evacuation plans 
has specific attention paid to the method in which people who 
cannot evacuate on their own because of physical impairment 
will be evacuated. And when we did Dean--and I was part of this 
personally--we sat down--not literally in the same room, but 
virtually in the same room--with the State of Texas talking 
about making sure we had adequate assets, ground ambulances, 
air ambulances and other transportation vehicles so we could 
make sure people who are disabled have an ability to evacuate 
or people who have special needs of any kind and if they can't 
be moved because moving them would itself imperil them, to make 
sure there are facilities that are capable of withstanding the 
storm so people can shelter in place because that has to be an 
option as well.
    So we are looking at the whole range of issues relating to 
special medical needs and we will continue to do that. That is 
a very high focus area for FEMA.
    Mr. Langevin. Thank you. I appreciate your answer and the 
attention given to this. With that, I just want to thank you 
for your leadership. I know you have a very difficult job to 
do, and I appreciate your passion and dedication to the 
Department and to protecting the country. Thank you.
    Secretary Chertoff. Thank you. And I enjoy working with the 
committee and enjoy appearing here as well.
    Mr. Langevin. Thank you, Mr. Secretary.
    Chairman Thompson. Thank you very much. We now yield 5 
minutes to the gentleman from California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
you for your testimony, Mr. Secretary. Sorry I had to leave, 
but we had a Judiciary Committee hearing on FISA, which is also 
rather important that we not only keep the law that we passed 
but that we re-enact a law in 6 months. And I know you touched 
on this, but I would like to get into it specifically. I was 
home in the district and just before that I had a teletown hall 
and three town halls back home. And the biggest question I have 
on immigration has to do with the confidence in the Federal 
Government that we are going to do something about securing the 
border. I share your objective in getting a comprehensive 
approach. I don't think the Senate bill in its form was what we 
needed, but I share your belief that we need an overall global 
approach to it. But we are not going to get that unless we have 
the confidence of the American people on security.
    The one thing they kept asking me is the fence, the fence, 
the fence. I know there is a lot more than the fence and I 
argue that, but that has become a symbolic icon and in these 
presidential debates there is some criticism saying they have 
only completed 13 miles of fence and you are laying down on the 
job and not doing it. For the record, can you give us exactly 
how much fence we have, when we will have a significant amount 
of the fencing done, and the Congress authorized 700 miles. As 
I recall, it is a 1,960-mile border on the southern part. 700 
miles is what we have asked for. Can you give me some figures 
specifically so I am not just the one giving it, I can actually 
say Secretary Chertoff said this is where we are and this is 
where we will be?
    Secretary Chertoff. As of today, we have 120 miles of 
fencing and 112 miles of vehicle barriers along the southern 
barrier. As of the end of this month, September, we will have 
approximately 145 miles of fencing in place along the southern 
border. That is exactly what we promised to have at the end of 
this fiscal year. As of the end of the calendar year 2008 we 
will have 370 miles of fencing along the border. I can't tell 
you exactly what the amount of vehicle barriers will be, 
between 2--and 300 miles.
    I should observe that just as some people are passionate 
about the fences as an icon, if you go to certain communities 
in Texas people are up in arms saying they don't want to fence. 
So we won't make everybody happy. But I will say we are on 
track to build the fencing and the delta between the 20--120 
miles currently in place and the 145 miles will be closed 
rapidly because we have the bollards in place along almost the 
entire border. We are building it close to a rate of two miles 
a day. So if you do the math there is about 25 miles we have to 
do to hit the target and we should be able to do that in about 
12 to 15 days barring an act of God.
    Mr. Lungren. When you say 120 miles of fence is that along 
the border? In some places it is double fencing?
    Secretary Chertoff. Border miles covered.
    Mr. Lungren. Okay. Secondly, with respect to the project of 
what I call the virtual fence, the integrated strategy, you 
testified before with respect to--I will use the word 
``disappointment,'' that you couldn't complete it at this 
point, you couldn't take delivery because it wasn't there. Are 
we learning things on the southern border with respect to that 
integrated approach that will help us on the northern border?
    Secretary Chertoff. Yes. The reason we went forth and did 
it with 28 miles first is so we could really experience 
operationally how it worked and take those lessons and take 
them elsewhere. Now, obviously the exact array is going to be 
different depending on where you are geographically, whether 
the south or the north. For example, parts of the northern 
border are really maritime domain. So that is not going to be 
an issue for land based radar and things of that sort. Parts of 
the northern border are best really handled using unmanned 
aerial vehicles or air assets. And we are going to deploy those 
along there. There other parts of the northern border where 
some kind of virtual fence or, you know, we do use sensors 
already up there. So whatever we can do to integrate better 
will be helpful. But the idea is to get this right in the 28 
miles and then deploy those lessons as we extend it along the 
other parts of the southern border and the relevant parts of 
the northern border.
    Mr. Lungren. Mr.Secretary, two areas. What is the state of 
the cooperation you are getting from the railroad industry on 
enhanced security and the chemical industry?
    Secretary Chertoff. Both have been very cooperative with 
us. The chemical industry I think has always been cooperative. 
We always worried a little bit about a few outliers, but I 
think the regulations we have in place now, you know, once we 
issue the final appendix that lists the cutoff quantities will 
give us the authority to police people who might not do what is 
in their own self-interest. So I am--I think we have made 
progress with both industries.
    Mr. Lungren. Mr. Secretary, I just want to say I echo the 
comments of the chairman that I am pleased you made a 
commitment to stay through the last day of the administration. 
As much as I think you would be qualified to be Attorney 
General, I think it would be a big mistake to remove you from 
the position now because I have the sense that the Department 
of Homeland Security is moving in the right direction. You have 
more than gotten your sea legs, you have given it direction. We 
need follow-through. And I would view it as a detriment to the 
country if you were to be replaced there before the end of your 
time because we spent a lot of time treading water and I think 
we are now moving in the right direction, and I thank you for 
your service.
    Secretary Chertoff. Thank you.
    Chairman Thompson. Thank you very much. On a sad note, we 
have just been notified that a former member of this committee, 
the original select committee, Representative Jennifer Dunn, 
has passed. And as you know, Mr. Reichert replaced her when she 
left Congress. And in addition to that, Representative Gillmor 
has also passed since this hearing has started. So it has been 
a tough morning for a lot of us.
    Mr. Secretary, we want to thank you. We agreed to 3 hours. 
We have met the timeline on that. You have been most gracious 
for giving us that 3 hours and there will be some follow-up, as 
you know, to the area. But I also ask unanimous consent to 
insert into the record the Secretary Chertoff's to-do list 
which we share with you.
    I would also like to remind the committee that tomorrow we 
will be holding a hearing on what I hope will be a series of 
hearings on spy satellites, the homeland and related issues. We 
have invited the Department of Homeland Security, privacy and 
civil liberties experts, and the DNI to testify. I know Ranking 
Member King is as interested in this issue as I am and welcome 
his support for these hearings.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]


             Appendix:  Additional Questions and Responses

                              ----------                              


Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

Responses from the Honorable Michael Michael Chertoff, Secretary, U.S. 
                    Department of Homeland Security

    Question 1.: In the 9/11 bill, the expansion of the Visa Waiver 
Program is closely tied to the completion of not only a biometric 
entry-exit system, but also an electronic travel authorization (ETA) 
system. The Committee has been briefed by the Department that it can 
have an ETA system online within 6 to 12 months, yet we have heard from 
industry that this timeline might be overly optimistic. What is the 
current status of the ETA? Does the Department have a plan for 
implementing ETA and, if so, what specific steps will be taken? Which 
office within the Department will be responsible for its 
implementation? When will ETA be operational?
    Response: A working group was established to develop a concept of 
operations and project plan, and to begin the project management 
process for initiating development and investment. Currently, the 
initiative requires start up funding to cover system development costs 
and contracted support in the project management area. Once funding has 
been identified, and based on the project plan, which is already 
developed and which outlines the policy decisions and general 
requirements of the system, a Request for Proposal would be issued to 
solicit industry involvement in the development. Approximately 8--12 
months after funding is made available, the system would be ready to 
begin operations. U.S. Customs and Border Protection, in cooperation 
and coordination with all stakeholders, will be responsible for 
implementation.

    Question 2.: In May, the Department announced that it intended to 
implement a new biometric air exit procedure that would be incorporated 
into the airline check-in process. GAO has questioned the planning 
documents for this new process and it has not even been piloted. How 
are you going to ensure that the Department will not be handing over an 
unfinished system to the next Administration?
    Response: Between January 2004 and May 2007, US-VISIT piloted 
biometric exit procedures at 12 airports and two seaports. The 
Department of Homeland Security's (DHS) final evaluation of the pilot 
program determined that traveler participation was low because exit 
procedures were not embedded in the existing travel process.
    DHS plans to issue a proposed rule by the end of this year 
proposing to implement biometric exit procedures at air and sea ports 
of departure. This regulatory action will include a public comment 
period, and these comments will be considered as the final rule is 
developed. We anticipate issuance of a final rule and implementation of 
the exit program by December 2008, before the end of the current 
Administration.

    Question: Mr. Secretary, in your testimony you state that up to 
3000 National Guardsman will continue to be deployed along the 
southwest border. This is roughly half of what was initially deployed. 
While I understand that our Guard is already stretched very thin with 
the ongoing war, I am concerned about reports that describe Border 
Patrol Sector Chiefs asking for volunteers to build fences and to fill 
other non-frontline posts. Can you describe how the loss of 3000 
Guardsmen will affect Border Patrol operations and why we need to ask 
for fence builders when we are supposed to be bringing nearly 18,000 
new agents online in the near future?
    Response: Operation Jump Start was a two year initiative to assist 
Border Patrol in gaining operational control of the border during a 
period of enhanced hiring of agents and deployment of tactical 
infrastructure. New hires and the redeployment of personnel have offset 
any reduction in Guard personnel due to the drawdown, and approximately 
3,000 additional agents are expected to be on board by the end of CY07.
    The deployment of Border Patrol Agents to assist in building 
portions of fence was a short term deployment to overcome factors that 
could have prevented timely completion and address shortfalls to 
include weather and delays in material deliveries, and is not in 
relation to the OJS drawdown. These agents have been returned to border 
enforcement operations now that the fence building program is back on 
schedule. The tactical infrastructure completed by OJS and the Border 
Patrol's temporary augmentation will remain in place far beyond the 
drawdown to assist in gaining operational control of the border.

    Question: In the August/September 2007 issue of the U.S. 
Immigration and Customs Enforcement Update there is an article which 
states, ``In addition to the increase in FOTs, ICE ended the practice 
of catch and release along the border in September 2006.'' Mr. 
Secretary, can you please clarify if catch and release has ended only 
the border or if DHS has ended the program in the interior?
    Response: ICE has effectively ended ``catch and release'' along the 
Southwest Border and Northern Border. This was accomplished by 
increasing efficiencies within the immigration removal process, 
including rapid activation of additional detention capacity, expanded 
use of expedited removal authority, substantial reduction in the cycle 
time required to remove aliens, and increased use of the Justice 
Prisoner and Alien Transportation System (JPATS).
    In an effort to maximize detention capacity supporting the end of 
``catch and release,'' ICE has worked closely with the Department of 
State and foreign governments to streamline ICE repatriation efforts. 
ICE has made technological advances, such as Video Teleconferencing 
(VTC) and the Electronic Travel Document (eTD) program, available to 
foreign governments to facilitate their issuance of travel documents 
used in the removal process, further increasing the efficiency of this 
process, while minimizing the length of stay in detention.
    In order to optimize the use of its nationwide detention capacity, 
ICE has created the Detention Operations Coordination Center (DOCC). 
The DOCC transfers detainees from field office jurisdictions with 
detention capacity shortages to jurisdictions with surplus capacity, 
thus ensuring that aliens subject to removal proceedings are not 
released solely due to a lack of detention space.
    Generally all aliens apprehended by ICE's Office of Detention and 
Removal Operations (DRO) or turned over to DRO, whether at the border 
or in the interior of the U.S., are taken into DRO custody. Having said 
this, ICE must also make efforts to manage funded and available bed 
space in support of the DRO mission. In order to remain within funded 
limits, DRO must actively manage its detained population using 
alternatives to continued detention when appropriate.

    Question 4.: Under the SAFE Port Act, the Department was supposed 
to initiate a rulemaking proceeding to establish minimum standards and 
procedures for securing containers in transit to the United States. 
This rulemaking was supposed to be initiated by January 13, 2007 and 
the interim final rule was supposed to be completed by April 13, 2007. 
This deadline was not met. Why was the Department unable to meet this 
mandate? When is the Department going to initiate the rulemaking?
    Response: On May 18, 2007, the Department of Homeland Security 
(DHS) notified appropriate members of the U.S. Senate and U.S. House of 
Representatives of its decision not to initiate a rulemaking proceeding 
to establish minimum standards for securing containers in transit to 
the United States within the mandated timeline. Although DHS readily 
acknowledges that the process of securing the container is a critical 
component of a multi-layered strategy to secure the entire supply 
chain, the department does not believe, at the present time, the 
necessary technology exists for such a comprehensive solution. 
Accordingly, no date to initiate a rulemaking proceeding to establish 
minimum standards and procedures for securing containers in transit to 
the United States can be established until adequate technology exists.

    Question: Section 201 of the SAFE Port Act required a Strategic 
Plan to Enhance the Security of the International Supply Chain. This 
plan was supposed to include protocols for the expeditious resumption 
of the flow of trade in the event of a transportation disruption or a 
transportation security incident. According to GAO, the Department did 
not achieve success with this plan. Secretary Chertoff admitted this 
fact at an August 16, 2007 meeting of the Advisory Committee on 
Commercial Operations for U.S. Customs and Border Protection. He told 
COAC members that day that the final product ``not a detailed plan.''
    When is the Department going to produce a detailed plan?
    Response: The Strategy to Enhance International Supply Chain 
Security, delivered to Congress on July, 13, 2006, explained how the 
Department's layered strategy for cargo security operates, as well as 
the interplay between multiple initiatives and programs. The Department 
provided this information in satisfaction of Section 201 of the Act as 
an initial submission. The final Strategy is due for delivery to 
Congress in July 2010.
    The plan provides overarching protocols for the prioritization of 
vessels and cargo, identifies incident management practices specific to 
trade resumption in support of the National Response Framework, and 
describes guidance for the redeployment of government resources and 
personnel. In doing so, the strategy recognizes that there exist many 
different types of incidents which might impact the supply chain, but 
that resumption itself is an ``all hazards'' requirement.
    The U.S. Coast Guard and U.S. Customs and Border Protection are, 
under a joint Senior Guidance Team, developing both tactical protocols 
for communications with the trade, and agency-specific plans for 
resumption activities. Further, in keeping with the Maritime 
Transportation and Security Act of 2002 (MTSA), the Area Maritime 
Security Committees are in the process of developing resumption annexes 
to each of the Area Maritime Security Plans. These revisions to the 
area plans are being conducted within the timelines of the mandated 
review and update cycle, with completion scheduled for mid-2009.

    Question 6.: How much money did the Department spend on this less-
than-successful document?
    Response: The Department expenses associated with this plan were 
principally in the area of staff time. A writing team of roughly 30 
individuals from across the components and agencies worked on the 
document over the 270 days of its development. Some individuals 
contributed greater amounts of time than others, depending upon their 
organizational involvement in the subject matter. At the Department 
headquarters level, the project lead, who conducted the majority of the 
review, consolidation, and drafting work, was a U.S. Coast Guard O-5 
detailee. An estimated 40% of his time over the development cycle was 
devoted to the project.

    Question: According to Philip Spayd in an August 27, 2007 article 
in the Journal of Commerce, ``many in the trade community anticipated 
an operational plan that would clearly set out the roles and 
responsibilities of government officials who would manage a trade 
security incident. What they received was a 128-page plan that would 
receive a high grade as a research project for a graduate school class 
in international logistics, but which lacks any operational 
grounding.'' What is your response to this critique?
    Response: While we welcome Mr. Spayd's input, it is clear that he 
misinterprets the intent of the document and the requirements of the 
Act. The DHS Strategy to Enhance International Supply Chain Security, 
especially in its initial form, is intentionally a high-level strategic 
document. It is not a detailed plan, as detailed plans have been and 
are being prepared by the specific components with authority and 
jurisdiction over the supply chain. With respect to Mr. Spayd's opinion 
that the strategy lacks operational grounding, it is worth noting that 
the writing team which developed the document consisted of roughly 30 
individuals from the involved agencies, each with decades of field 
level operational experience. Their operational expertise greatly 
informed the process.

    Question 8.: It has come to my attention that Colonel Velez, Acting 
Director of the Office of Emergency Communications is expected to 
resign from her post in the next couple of weeks.
    Could you please confirm if there is any truth this?
    Who do you have in place to fill this critical post?
    What are the specific accomplishments of the Office of Emergency 
Communications to date under the leadership of Colonel Velez as it 
related to the mandates outlined in the Post-Katrina Reform Act?
    Response: Col. Victoria Velez resigned from her position as Acting 
Director of the Office of Emergency Communications (OEC) effective on 
September 14, 2007. She had been on detail from the Air Force to the 
Department of Homeland Security (DHS) since August 2005.
    A new director has been selected and will be named in the coming 
weeks. Currently, Mr. Michael Roskind, Deputy Director of OEC, is 
serving in the role of Acting Director.
    Colonel Velez led the Department's efforts to stand up the OEC. 
Title XVIII of the Homeland Security Act, as amended, assigns OEC the 
critical and difficult mission of advancing interoperable and operable 
emergency communications through collaboration with Federal, State, 
local, and tribal partners.
    Through Colonel Velez' efforts and the hard work of the DHS team, 
OEC became operational on April 1, 2007. Since that time, OEC has 
stayed focused on meeting its mission requirements and integrating 
three interoperability programs that transferred from other DHS 
entities: the Federal wireless programs under the Integrated Wireless 
Network; the Interoperable Communications Technical Assistance Program 
(ICTAP); and outreach, guidance, and tool development by the SAFECOM 
program.
    Col. Velez' service to the Department and public safety community 
will ensure that OEC's mission will have lasting effects upon the 
safety and security of the Nation.
    Key OEC accomplishments include:
        <bullet> Worked with key OEC stakeholders at the Federal, 
        State, and local level to identify their needs and gain a 
        better understanding of the ever-changing interoperable 
        communications environment--including working to bridge 
        interoperability gaps among Federal, State, and local 
        governments. As an administrator of external Federal wireless 
        programs, OEC has begun establishing and implementing projects 
        through the Federal Partnership for Interoperable 
        Communications, a cooperative partnership of Federal, State, 
        and local agencies with a public-safety mission, to enhance the 
        operability and interoperability of Federal departments and 
        agencies.
        <bullet> Built relationships with our Federal, State, local, 
        and tribal partners as part of our extensive stakeholder 
        outreach and engagement mission. OEC participated in and 
        supported several stakeholder forums and initiatives to promote 
        awareness and help build consensus among Federal, State, and 
        local entities on policy and technical issues affecting 
        interoperable communications.
        <bullet> Collaborated with the Federal Emergency Management 
        Agency (FEMA) on establishment of the Public Safety 
        Interoperable Communications (PSIC) Program and the Fiscal Year 
        2008 Homeland Security Grant Program (HSGP). Made significant 
        progress in the area of statewide interoperability planning.
        <bullet> Laid the groundwork for a partnership with FEMA and 
        the National Telecommunications and Information Administration 
        (NTIA) to develop a peer review process for the evaluation of 
        the Statewide Communications Interoperability Plans (SCIPs). 
        This process will enable States and territories to receive 
        meaningful feedback from their peers on how to improve their 
        interoperability planning efforts. As a result, the Department 
        expects the SCIPs to become living documents that States and 
        territories regularly update and enhance--not a one-time 
        commitment that becomes ``shelf-ware.''
        <bullet> Coordinated the accelerated delivery of communications 
        equipment and training services three months early to several 
        hurricane-prone States in preparation for the 2007 hurricane 
        season. This training addressed the use of the equipment in its 
        designated communications planning environment, as well as the 
        need for coordination, governance, and a regional set of 
        standard operating procedures for communications. OEC also 
        provided technical assistance support to 48 of 56 States and 
        territories for their SCIPs or with the Communications Asset 
        Survey and Mapping tool.
        <bullet> Participated in the Golden Phoenix Interoperability 
        Joint Training Event, which included participation by Los 
        Angeles City and County multi-jurisdictional emergency 
        responders, the California National Guard, and the Department 
        of Defense (DOD). OEC ICTAP provided technical evaluators and 
        planning assistance to measure and evaluate communications 
        interoperability across the continuum of first responders, DOD, 
        participating State and local government entities, and Non-
        Governmental Organizations. The event underscored the need for 
        training opportunities among the various response groups and 
        the challenges that might be encountered.

    Question 9.: Section 901 of H.R. 1 says that the Department ``may 
develop guidance or recommendations and identify best practices'' to 
``foster action'' by the private sector in order for it to be prepared 
for a human-made or natural disaster.
    What is the status of the guidance and recommendations?
    How are you working with the private sector to better understand 
``best practices''?
    How will these guidance and recommendations encourage the private 
sector to plan to recover from an event in order to resume its 
operations?

    Response: Within the Department, FEMA has been assigned the 
responsibility to make recommendations regarding how the Department 
will implement Section 901. At this stage, the Department has not 
decided exactly how it will develop guidance or recommendations and 
identify best practices as discussed in HR 1. Many of the operating 
elements of the Department, including FEMA, Science and Technology, 
Infrastructure Protection and others have extensive relations with 
various private sector organizations through which the Department 
learns and can learn about best practices for preparedness. In 
particular the 17 Critical Infrastructure and Key Resource Sector 
Councils are and will be a source of best practices.
    Until the potential guidance and recommendations are created, it is 
premature to speculate on how they will ``encourage the private sector 
to plan to recover from an event.'' Given the vast number of mandated 
taskings that are called for in the 9/11 Act, we are focusing first on 
what we must do by certain deadlines, and then will turn our attention 
to suggested taskings in the 9/11 Act.
    What is the Infrastructure Data Warehouse (IDW) and how is it 
different from the National Asset Database (NADB)?
    Response: Some functions of the previously existing National Asset 
Database (NADB) will combine with new, advanced capabilities to form 
the Infrastructure Data Warehouse (IDW). Instead of a single database 
(the NADB), the IDW will establish a distributed IT architecture using 
a Service Oriented Architecture (SOA) to integrate existing data sets 
from Federal, State, and commercial sources through a rapid ingest 
capability that will improve data collection time/cost efficiencies. 
The SOA will virtually eliminate the need to copy and paste information 
from other data stores into a single DHS database (NADB) by providing 
the capability to link the existing data stores through a larger, 
virtual IT architecture. This architecture will reduce duplication of 
effort and improve the robustness of existing information at a lower 
cost, while facilitating data maintenance and verification by numerous 
partners and entities within the homeland security community.
    The IDW will require, maintain, and publish comprehensive DHS 
Enterprise Architecture-compliant metadata on all data products under 
its control. Metadata will include detailed information on the content, 
provenance, context, precision, and accuracy of all data records. These 
records will be openly accessible to the SOA through a dynamic (live, 
synchronized) connection between the IDW data stores and a metadata 
catalog service. This service may by operated at the enterprise level 
or maintained locally in synchronization with approved DHS standards 
for federated metadata catalog resources. Role-based access controls 
will ensure that all appropriate records and products within IDW are 
transparently accessible to the entire DHS SOA user community.

    Will the National Asset Database, codified by the ``Implementing 
Recommendations of the 9/11 Commission Act of 2007,'' be used to inform 
the IDW? If so, to what extent?
    Response: The information previously maintained in the National 
Asset Database will be incorporated into the Service-Oriented 
Architecture of the Infrastructure Data Warehouse. This pre-existing 
information will be coupled with information collected through other 
means, such as the Automated Critical Asset Management System, which is 
used by State and local law enforcement partners, or existing Federal 
databases, such as the Army Corps of Engineers' National Inventory of 
Dams, to offer a robust and more complete data set that all 
infrastructure protection and incident management personnel can use.

    The law requires that the Secretary ``shall use the database 
established under [it] in the development and implementation of 
Department plans and programs as appropriate.'' What is the status of 
the construction of the data collection guidelines, per the language of 
the law?
    Response: The Office of Infrastructure Protection's (IP's) 
Infrastructure Information Collection Division (IICD) was established 
to lead IP's efforts to provide standardized, relevant, and customer-
focused infrastructure information to homeland security partners. A 
primary focus of the division is to establish a collection-management 
process to identify and prioritize information requirements and drive 
data collection efforts. A strategic collection management process was 
developed in fiscal year 07 and is currently being implemented. Request 
for Information (RFI) templates are being used to outline customer 
requests for geospatial and informational products. In addition, IICD 
has begun working with various infrastructure protection partners to to 
identify information requirements. This has been initiated with primary 
IP partners such as those that conduct risk analysis (Infrastructure 
Analysis and Strategy Division) and incident management (Contingency 
Planning and Incident Management Division). During fiscal year 2008, 
the coordination on RFI templates will expand to other DHS components 
and the Sector-Specific Agencies (SSAs). Additionally, IP will 
collaborate with the SSAs to update the Infrastructure Taxonomy, which 
outlines the categories of infrastructure types within each of the 17 
Critical Infrastructure-Key Resources sectors. This effort was 
initiated in 2005 and is updated annually to ensure an accurate 
representation and categorization of assets within the sectors.

    How will you engage State homeland security officials in order to 
acquire relevant and appropriate information about assets to inform the 
National Asset Database?
    Response: DHS will continue to work through the State and 
Territorial Homeland Security Advisors (HSAs) to conduct data calls and 
requests for information, which include requests to verify or validate 
portions of infrastructure. One such annual data call focuses on the 
Tier I/II effort to collaboratively work with the HSAs to identify 
infrastructures of highest national significance. Guidance and criteria 
is established to provide awareness and detailed instructions to the 
State and Territorial HSAs.
    Additionally, HSAs can coordinate through their respective 
Protective Security Advisors to review the infrastructure information 
within the Infrastructure Data Warehouse (IDW) for accuracy and 
relevance. This can be done at any point, and feedback can be provided 
to IP to update the data store. Once the IDW is operational (Initial 
Operational Capability is planned for September 2008 and access is 
provided to the HSAs through a Web-based portal, State and local 
personnel will be able to access the IDW holdings directly for review 
and can provide recommendations for additions, deletions, and updates 
as needed. These recommendations will proceed through a quality control 
and approval workflow prior to acceptance for all users to access.
    In addition to the data calls and verification and validation 
efforts, HSAs will also be requested to identify existing data stores 
that may be integrated with the IDW through the Service Oriented 
Architecture. This will improve information robustness and accuracy, 
while reducing the collection burden on Federal, State, local, and 
private-sector entities through more effective and efficient 
information sharing.

    How will you work with the Homeland Security Advisors from the 
States?
    Response: DHS will continue to work through the State and 
Territorial Homeland Security Advisors (HSAs) to conduct data calls and 
requests for information. Homeland Security Advisors will be the 
primary conduit to all State and territorial agencies and 
organizations, as well as some private-sector owner and operators. IP 
will work with the Department's Office of Intergovernmental Programs to 
help ensure proper communication and coordination with the HSAs.
    Under the framework of the National Infrastructure Protection Plan 
(NIPP), the recently established State, Local, Territorial, and Tribal 
Government Coordination Council (SLTTGCC) will be a vital collaborative 
partner in the establishment or processes and guidelines to facilitate 
effective and efficient information exchange and sharing.

    How will you work with the State, Local, Tribal, and Territorial 
Government Coordinating Council?
    Response: The STTLGCC will serve as the primary strategic level 
partner for IP in national-level policy and program development.
    IP will also work with other State, territorial, tribal, and local 
organizations such as the National Governors' Association Homeland 
Security Advisors Council, National Sheriffs' Association, 
International Association of Fire Chiefs, National Association of 
Counties, and American Legislative Exchange Council on national level 
policy and programs. In working with all of these groups, IP's senior 
leadership recognizes that the SLTTGCC will remain the primary 
organization to help IP achieve the strategic goal of working 
collaboratively with its State, territorial, tribal, and local partners 
in the development and implementation of infrastructure-protection 
policies and programs. The SLTTGCC should serve as a means to reach 
back and into many of the above organizations and associations to 
ensure their full input and impact.

    As you know, the private sector owns and operates a large portion 
of critical infrastructure in this country. What methods will you use 
to acquire relevant information from the private sector to inform the 
database? How will you use the Protected Critical Infrastructure 
Information (PCII) Program?
    Response: The private-sector owners and operators have various 
options to enable DHS information management and collection. 
Information for inclusion in the Infrastructure Data Warehouse can be 
collected through the use of the Risk Analysis and Management for 
Critical Asset Protection tools, Vulnerability Identification Self-
Assessment Tool, and other National Infrastructure Protection Plan-
compliant methods. This will enable users, whether private-sector 
owners and operators or State and local entities, to assess their 
infrastructure using common metrics and methods that provide 
comparative results within and across sectors or jurisdictions. Private 
sector owners and operators may also leverage their Local Law 
Enforcement and First Responders to collect and manage infrastructure 
information. DHS has made available the Automated Critical Asset 
Management System (ACAMS) for use by State and Locals to collect and 
manage infrastructure information.
    Additionally, the private sector can work under the framework 
established by the National Infrastructure Protection Plan (NIPP) to 
provide information through their respective Sector Coordinating 
Council (SCC). The SCCs, which are made up of sector-specific private 
entities, associations, and owners/operators, are the primary method 
for private sector participation and input.
    IP recognizes that information security is a vital concern. IP will 
continue efforts to ensure that private-sector collection tools are 
certified by the Protected Critical Infrastructure Information (PCII) 
Program Office and that, as applicable, information is designated and 
protected as PCII. The Automated Critical Asset Management System 
exemplifies this effort. This operational tool enables State and local 
law enforcement and first responders to collect information that can be 
designated and protected as PCII by DHS where applicable. The PCII 
program and designation system is vital to the collection of 
information and detailed coordination between the Federal Government 
and private-sector entities.

    Question 11.: What is the status of the National Infrastructure 
Protection Consortium? Do you have some prospective members?
    If so, then who?
    Response: The Implementing Recommendations of the 9/11 Commission 
Act granted the Secretary the authority to establish a National 
Infrastructure Protection Consortium in newly enacted Section 210E(f). 
I have not yet exercised this authority and no action has been taken. 
No prospective members have been identified.

    Question: The Homeland Security Act of 2002 requires that the 
Department ``carry out comprehensive assessments of the vulnerabilities 
of the key resources and critical infrastructure of the United States, 
including the performance of risk assessments to determine the risks 
posed by particular types of terrorist attacks. . .'' Furthermore, the 
H.R. 1 requires that the Department provide Congress with ``a report on 
the comprehensive assessments'' for fiscal year 2007 and each 
subsequent fiscal year.
    How effective have these comprehensive assessments been?
    Response: The Office of Infrastructure Protection's (IP's) 
Protective Security Coordination Division (PSCD) has developed several 
programs that include vulnerability assessments of critical 
infrastructure and key resources (CI-KR): the Site Assistance Visit 
(SAV) and the Comprehensive Review (CR). Both the SAV and CR examine 
the vulnerabilities of specific CI-KR to attack and the potential 
consequences of such an attack, and ultimately provide recommendations 
for enhancing the preparedness of the surrounding jurisdiction and the 
security posture of the site. As 85 percent of CI-KR throughout the 
Nation are privately owned and operated, IP has designed the SAV and CR 
programs as holistic, non-regulatory initiatives that foster 
interagency coordination and cooperation among Federal, State, and 
local governments, and private industry.
    The SAV program is designed to facilitate vulnerability 
identification and mitigation discussions between the Government and 
owners and operators of CI-KR sites. SAV brings together Federal 
partners, State and local law enforcement, other emergency responders, 
and CI-KR owner/operators to conduct an ``inside the fence'' assessment 
that identifies critical assets, specific vulnerabilities, and security 
recommendations. Since 2003, IP has conducted 722 SAV assessments 
throughout all 17 CI-KR sectors.
    The CR is a cooperative, regional, IP-led analysis of high-
consequence CI-KR. The CR considers potential terrorist actions for an 
attack, the consequences of such an attack, and the integrated 
preparedness and response capabilities of the owner/operator, State and 
local law enforcement, and emergency response organizations. The 
results are used to enhance the overall security posture of the 
facilities, their surrounding communities, and the geographic region 
using short-term improvements and long-term risk-based investments in 
training, processes, procedures, equipment, and resources for the 
community. In July 2007, IP completed Chemical Sector CRs for six 
regions throughout the Nation. The regions selected have significant 
concentrations of high-consequence chemical facilities. Additionally, 
in September 2007, IP completed Nuclear Sector CRs for all 65 of our 
Nation's commercial nuclear power plants. Currently, IP is planning and 
developing the California Water Project CR, the first system approach 
to a comprehensive assessment.
    The SAVs and CRs have been effective in identifying vulnerabilities 
of the Nation's CI-KR and improving the security and preparedness 
posture of the surrounding jurisdiction. The effectiveness of these 
assessments is contingent upon the collaboration of Federal, State, 
local, and private-sector owner/operators to identify vulnerabilities, 
capabilities, and potential consequences, and to provide collective 
protective measures to secure the Nation's CI-KR. Furthermore, the 
information captured in SAVs is used to publish sector-based Common 
Vulnerabilities (CV), Potential Indicators of Terrorist Activity (PI), 
and Protective Measures (PM) reports. These reports help owners and 
operators detect and prevent terrorist attacks. CV reports provide 
insight into the common characteristics, general vulnerabilities, and 
likely consequences of an attack for representative facilities in a 
given sector. PI reports identify possible signs of an attack to better 
facilitate early detection, reporting, and prevention of terrorist 
activities on a sector-by-sector basis. PM reports describe likely 
terrorist objectives, methods of attack, and corresponding protective 
measures and their implementation in accordance with the Homeland 
Security Advisory System, on a sector-by-sector basis. All of these 
reports are available for use by law enforcement, security 
professionals, and asset owners and operators upon request.
    Additionally, the Department of Homeland Security (DHS) has aligned 
SAVs and CRs with the Buffer Zone Protection Program (BZPP). Results of 
the SAVs and CRs provide substantive justification for the distribution 
of BZPP grant funding, as BZPP grant money is provided to mitigate 
specific vulnerabilities identified during SAVs and CRs.

    Who has carried them out?
    SAVs are conducted by IP and tailored to meet unique requirements 
of each CI-KR, such as the scope of the assessment, State and local 
involvement, and other requirements from the owner/operator. IP uses a 
combination of Federal employees with contract support to conduct these 
assessments. Generally, a SAV team consists of a Federal team lead, 
assault planner/physical security specialist, and systems/
interdependency specialists.
    The core Federal team tasked to conduct CRs consists of 
representatives from the Federal agencies responsible for security and 
response efforts of CI-KR. The team composition is contingent upon the 
unique attributes of each CI-KR sector and the assets located in the CR 
footprint. For example, the inter-agency teams for the Nuclear and 
Chemical sector CRs included representatives from IP, the State, the 
Chemical and Nuclear Sector-Specific Agencies, United States Coast 
Guard, Federal Bureau of Investigation, Nuclear Regulatory Commission, 
Transportation Security Administration, industry-based Sector 
Coordinating Councils, and the Federal Emergency Management Agency's 
National Preparedness Directorate. IP is currently coordinating a 
multi-agency CR team for the California Water Project CR.

    To what extent are you receiving cooperation from the private 
sector and State and local governments?
    Private-sector and State and local government partners have been 
integral in IP's CI-KR assessment activities. Because SAVs and CRs are 
voluntary, non-regulatory assessments, the cooperation of the private 
sector and the integrated efforts of the Government are essential 
components of these programs. SAVs are conducted at the request of the 
owner/operator or DHS and typically incorporate law enforcement and 
other first responders. Many SAVs have brought together owners/
operators and emergency responders who have had little to no 
interaction prior to the assessment. The SAV also provides an avenue 
for open communication among Federal, State, local, and private 
industry security partners, providing the foundation for integrating 
efforts in the protection of CI-KR. CRs require extensive coordination 
among Federal, State, and local governments, the Sector Coordinating 
Councils, Sector-Specific Agencies, and numerous private sector owner/
operators.

    How have you attempted to encourage their involvement? What 
difficulties have you found and what measures have you taken to 
eliminate those difficulties?
    The effectiveness of all IP programs is contingent upon the 
collaboration of Federal, State, local, and private-sector owner/
operators to identify vulnerabilities, capabilities, and potential 
consequences, and to provide collective protective measures to secure 
the Nation's CI-KR. Such collaboration and cooperation is essential, as 
IP vulnerability assessments are not required; rather, these 
assessments are conducted on a voluntary basis. Significant portions of 
the most high-consequence CI-KR Sectors are regulated by other 
organizations that have the capability to impose additional 
requirements or penalties upon these sites. For this reason, the 
private sector has been (at times) reluctant to host DHS-led 
assessments.
    IP has 68 Protective Security Advisors (PSAs) deployed across the 
Nation, covering 60 districts. IP PSAs work daily to establish 
relationships with Federal, State, local, and private-sector partners, 
and discuss information sharing, coordination, collaboration, and IP 
programs--including comprehensive assessments of CI-KR. PSAs have been 
deployed to represent DHS at the Federal, State, territorial, local, 
and tribal levels, serving as the Department's onsite critical 
infrastructure and vulnerability assessment specialists, and as vital 
channels of communication among DHS officials and private-sector owners 
and operators of CI-KR assets.
    As a result of their locations throughout the United States, PSAs 
are often the first Department personnel to respond to incidents. 
Consequently, PSAs are uniquely able to provide early situational 
awareness to DHS and IP leadership during an incident, often performing 
duties as the Infrastructure Liaison at the Joint Field Office in 
support of the Principal Federal Official. PSAs also coordinate 
requests from CI-KR asset owners and operators for services and 
resources, including training, SAV scheduling, Buffer Zone Plans, CRs, 
and verification and technical assistance visits.
    Because information sharing is voluntary, the Protected Critical 
Infrastructure Information (PCII) Program, also within IP, is designed 
to encourage private industry to share its sensitive security-related 
business information with the Federal Government. PCII is an 
information-protection tool that facilitates information sharing 
between the Government and the private sector. DHS and other Federal, 
State and local analysts use PCII in pursuit of a more secure homeland, 
focusing primarily on:
        <bullet> Analyzing and securing critical infrastructure and 
        protected systems;
        <bullet> Identifying vulnerabilities and developing risk 
        assessments; and
        <bullet> Enhancing recovery preparedness measures.
    If the information submitted satisfies the requirements of the 
Critical Infrastructure Information Act of 2002, it is protected from 
public disclosure under the Freedom of Information Act and State and 
local disclosure laws. The information is also protected from use in 
civil litigation.

    Given that the private sector has not provided you a lot of 
information regarding its assets, do you feel that these comprehensive 
assessments adequately assess the vulnerabilities of the key resources 
and critical infrastructure of the United States?
    Because 85 percent of CI-KR throughout the Nation are privately 
owned and operated, DHS/IP has designed the SAV and CR programs as 
holistic, non-regulatory initiatives that foster interagency 
coordination and cooperation among Federal, State, and local 
governments, and private industry. DHS/IP believes that these 
assessments provide significant value to private sector owner and 
operators. The findings of IP assessments have been used as short-term 
improvements and long-term risk-based investments, helping secure our 
Nation's CI-KR.

    Question 13.: Mr. Secretary: The tragic events of September 11, 
2001, the Madrid and London bombings, and Hurricane Katrina each 
demonstrated the need to not only protect against different types of 
hazards, but to also prepare to recover from such events. In fact, the 
private sector and local levels of government have been encouraging the 
Department to broaden its focus from protection and prevention to 
recovery and continuity planning. You, too, Mr. Secretary appeared to 
pick up on this theme during a speech at the Center for Risk and 
Economic Analysis of Terrorism Events in Los Angeles on July 20, 2007. 
When speaking about the Strategy to Enhance International Supply Chain 
Security, you said that ``. . .importantly, [the strategy] specifically 
focuses on resumption of trade following an incident.'' Unfortunately, 
though, this theme of ``resumption'' following an incident does not 
seem to manifest itself in many other areas of DHS planning. For 
instance, it does not appear to be a strong theme in the 17 Sector-
Specific Plans that were released under the National Infrastructure 
Protection Plan earlier this year.

    How has DHS been encouraging the private and public sectors to 
focus on the resumption of operations following an incident rather than 
only focusing on protection and prevention?
    Response: The protective programs for CI-KR identified in the 
National Infrastructure Protection Plan (NIPP) and the Sector Specific 
Plans (SSPs) may include actions that mitigate the consequences of an 
attack or incident, such as recovery. Actions under these plans are 
focused on the following aspects of preparedness:
        <bullet> Mitigate: Lessen the potential impacts of an attack, 
        natural disaster, or accident by introducing system redundancy 
        and resiliency, reducing asset dependency, or isolating 
        downstream assets;
        <bullet> Respond: Activities designed to enable rapid reaction 
        and emergency response to an incident, such as conducting 
        exercises and having adequate crisis response plans, training, 
        and equipment; and
        <bullet> Recover: Allow businesses and government organizations 
        to resume operations quickly and efficiently, such as using 
        comprehensive mission and business continuity plans that have 
        been developed through prior planning.
    As a specific example of addressing recovery for CI-KR, DHS 
released the ``Pandemic Influenza Preparedness, Response, and Recovery 
Guide for Critical Infrastructure and Key Resources'' in September 2006 
as part of the Department's pandemic preparedness strategy. The guide 
supports the efforts of the public--and private-sector CI-KR community 
to develop and execute their essential pandemic contingency plans and 
preparedness actions. Working closely with its private-sector partners, 
DHS designed the guide based on the principle that disaster planning 
and preparedness is a fundamental requirement of good business 
practice. All organizations must ensure that the capability exists to 
continue essential operations in response to potential operational 
interruptions, including a pandemic influenza.
    The compounded effects of health impact assumptions, proposed 
disease mitigation strategies, extended duration, and resultant 
implications for all businesses place a severe pandemic at the extreme 
end of a disaster continuum. Pandemic influenza has the potential to 
cause levels of global illness, death, economic disruption, and social 
disturbance like no other. To date, business continuity plans have 
integrated most of the known disaster scenarios but, until recently, 
have generally not included a pandemic influenza. The CI-KR Pandemic 
Guide recommends an exhaustive review of all existing continuity of 
operations (COOP) plans to update and address the specific impacts and 
implications for pandemic influenza, including updates to address the 
extreme case, called a Continuity of Operations Plan-Essential (COP-E).
    DHS designed COP-E as an extension and refinement of current 
business contingency and COOP planning that fully exploits existing 
efforts and integrates them within the suite of business disaster 
plans. The COP-E process assumes severe pandemic-specific impacts to 
enhance and complement existing business continuity plans. COP-E 
integrates the additional actions needed to identify and prioritize 
essential functions, people, and material within the business, across 
business sectors, and as important for the community and the Nation. It 
highlights actions and options to protect and sustain these at each 
pandemic phase from preparation to recovery. In addition, COP-E 
incorporates a measured approach for ``survival'' and recovery of 
operations under distinct COP-E scenarios.
    COP-E planning assumes a major disaster of national significance, 
like a pandemic, cascades into a national and international 
catastrophe. It assumes planning for degrees of ``essential'' 
operational requirements based upon a dramatically worsening situation 
and the need to sustain not only the business but also the community 
and the Nation. Thus, the scale and scope of the impacts and possible 
outcomes demand a dedicated level of effort, investment, and planning 
beyond typical business continuity planning. COP-E expands initial 
business continuity plans to create an agile, actionable plan for 
responding to and recovering from a potential catastrophic failure on a 
national or international scale. COP-E scenarios provide business 
planners a broad yet detailed perspective within which to develop 
graduated response and recovery actions. COP-E assists planners in 
prioritizing their actions and costs in a measured fashion, and it 
prepares them for the rapid adjustments necessary as pandemic impacts 
evolve.

    In particular, how has DHS used the Sector Partnership Framework to 
encourage continuity planning in the aftermath of a disaster in order 
for systems and assets to be up and running as soon as possible?
    The Sector Partnership Framework is used to achieve the underlying 
goal of the National Infrastructure Protection Plan (NIPP): to build a 
safer, more secure, and more resilient America. To accomplish this, the 
Department of Homeland Security (DHS) is working with our sector 
partners to implement a long-term risk-management program. This program 
includes efforts to encourage continuity planning to ensure the 
resiliency of CI-KR against known threats and hazards in addition to 
planning for rapid CI-KR restoration and recovery for those events that 
are not preventable. Collaborative work using the sector partnership is 
evident in the creation of the Sector Specific Plans and the National 
Response Framework, both of which address the issue of resiliency.
    Specifically, for example, DHS is currently following up on the CI-
KR Pandemic Guide by working with each of the 17 CI-KR sectors to 
develop Sector-Specific Pandemic Guidelines and workshops for the 
owners and operators throughout each of the critical infrastructure 
sectors. Each of the guidelines, which will act as annexes to the main 
guide, will be developed and endorsed by the sectors themselves. Each 
Sector Coordinating Council (SCC) and Government Coordinating Council 
(GCC) will have many opportunities to comment upon and edit the 
guidelines during their development. Eventually, each SCC and GCC will 
be asked to endorse the guidelines. The guidelines are designed not 
only to plan for the impacts of a severe pandemic outbreak but also to 
prepare companies and organizations to continue providing their 
essential products and services throughout a pandemic and its 
aftermath. The guidelines will outline the seven major areas of 
vulnerability the sectors face and provide actions, supporting actions, 
and questions to consider in determining the appropriate strategies to 
employ to recover from a pandemic outbreak.

    How has the Strategy to Enhance International Supply Chain Security 
encouraged stakeholders to focus on resuming operations in the 
aftermath of an incident?
    The Strategy to Enhance International Supply Chain Security was 
developed in response to Sections 201 and 202 of the Security and 
Accountability For Every Port Act and was released in July 2007. It is 
set within a framework of other national strategies including the 
National Security Strategy, the National Strategy for Homeland 
Security, the National Strategy for Maritime Security, the National 
Response Plan/Framework, the National Infrastructure Protection Plan, 
the National Maritime Transportation Security Plan, and other strategic 
plans. As a Department of Homeland Security (DHS) strategy, it does not 
replace these documents; rather, it seeks to harmonize their goals into 
a multi-layered, unified approach for further development by Department 
components.
    Although DHS was the lead Department for the development of the 
strategy, its successful implementation is dependent on stakeholders 
from across the Federal Government, State and local governments, 
foreign governments and the private sector. Components of the Maritime 
Government Coordinating Council (GCC) were large contributors to the 
drafting of the strategy, specifically Customs and Border Protection 
and the United States Coast Guard. Coordination between Federal 
agencies and the private sector is essential, and work continues among 
all Sector Coordinating Councils and GCCs to address issues of 
prevention, protection, response, and recovery.

    Question 14.: A new school year has recently started. As the former 
North Carolina schools superintendent, I know that taking care of our 
children while at school is a top priority for educators across the 
country, and they are doing a great job of making our schools safe and 
secure. However, vigilance is a continuous process and requires 
knowledge and resources. Last May, this Committee held a Full Committee 
hearing on ``Protecting our Schools: Federal Efforts to Strengthen 
Community Preparedness and Response.'' In this hearing and in a GAO 
report I requested with the Chairman, we discovered a lack of 
coordination by the Federal Government to streamline programs and 
grants to help schools develop and implement emergency management 
plans. You and I have spoken before about what the Department is doing 
to get information to schools on security and preparedness, and about 
the need for Federal funding to help communities enhance school 
security.
    I know you have worked with the Department of Education to develop 
a web-based clearinghouse, but would like to hear more about how you 
will make sure the most relevant and up-to-date information is 
available to schools. School children are at school the majority of the 
day, and are among our most vulnerable citizens in the event of an 
emergency. What steps is the Department taking to ensure that first 
responders and school administrators are working together to develop 
emergency management plans and that school administrators get the 
resources they need to implement these plans?
    In your testimony, you speak about changes at FEMA that make it a 
more nimble and better equipped organization, with ten regional offices 
that work directly with state and local emergency management 
communities. How do you plan to raise awareness of school preparedness 
within this new structure? Can you give some examples of regional 
initiatives that incorporate schools in their ``management 
communities'' through direct interaction or planning?
    Response: FEMA has a number of ways to support State and local 
efforts to address school preparedness issues including its Citizen 
Corps Programs, the Emergency Management Institute training programs, 
and the support provided by its Homeland Security Grant Programs. The 
Citizen Corps Program, for example, is a Federal initiative that helps 
coordinate State and local Citizen Corps Councils. Sponsored by local 
government, and typically involving local emergency management 
agencies, Citizen Corps Councils bring together representatives from 
public and private sector community groups--including schools--to 
identify priorities, integrate resources, and learn about and practice 
response skills. More than 2,200 Citizen Corps Councils are active 
across the country, with groups in every State and U.S. Territory. It 
must be understood that the efforts to support school preparedness are 
based on the priorities established at the State and local level for 
the use of the resources available to them.
    Preparing and securing school communities--faculty, staff, 
students, parents, visitors, and academic facilities--is a critical 
part of Citizen Corps' mission. The Councils' school representatives 
play key roles of integrating school emergency plans with community 
plans, coordinating alert systems, and helping the academic community 
learn about and exercise disaster preparedness.
    In addition to helping schools get involved in local preparedness 
plans, Citizen Corps also has several national initiatives and local-
led initiatives that address school issues.
    On the national level, Citizen Corps has partnered with the U.S. 
Department of Education to enhance the relationship between schools and 
Citizen Corps Councils. The Department of Education is one of Citizen 
Corps' 25 national affiliates that expand the number of emergency 
responders and nongovernmental resources and materials available to 
States and local communities. In an effort to enhance public alerts and 
warnings for schools, one national initiative distributed about 97,000 
National Oceanic and Atmospheric Administration (NOAA) Public Alert 
Radios to all K-12 public schools in 2005 and 2006. The ``America is 
Safer when our Schools are Safer'' NOAA Public Alert Radio Distribution 
Program is a collaborative effort of NOAA at the Department of 
Commerce, FEMA's Citizen Corps at the Department of Homeland Security, 
the Department of Health and Human Services, and the Department of 
Education. In cooperation with Citizen Corps, the Department of 
Education, and Department of Health and Human Services, NOAA maintains 
a radio distribution website with resources and tools to connect 
schools, emergency managers, and Citizen Corps Councils. The website's 
materials encourage Citizen Corps Councils to work with their local 
schools and school administrative officials, and encourage schools to 
take an active role in their community's alerts and warnings systems 
and emergency operations planning.
    Citizen Corps and the Department of Education also collaborate on 
preparedness resource materials for emergency managers and schools. 
Citizen Corps, for example, has provided presentations for the 
Department of Education at national conferences and meetings. This 
fall, Citizen Corps and the Department of Education were featured on 
the Department of Homeland Security's Town Hall Meeting on School 
Preparedness Webinar. The webinar, designed for schools and emergency 
personnel across the country, highlighted resources for schools from 
several agencies: the Department of Education's Office for Safe and 
Drug-Free Schools offered educational materials and grant programs for 
school preparedness; FEMA's National Preparedness Directorate offered 
ways to tap into the Homeland Security Grant Program; FEMA's Emergency 
Management Institute highlighted free training available to schools for 
emergency preparedness; and the Citizen Corps Program discussed the 
importance of school participation on Citizen Corps Councils.
    Many programs are organized at the State and local level. Through 
the Citizen Corps national affiliates program, those State and local 
efforts are able to partner with national organizations that offer a 
number of services, including public education, outreach, and training; 
representation for volunteers interested in helping to make their 
community safer; and volunteer service opportunities to support first 
responders, disaster relief activities, and community safety efforts. 
Many Citizen Corps affiliates provide age- and grade-appropriate 
preparedness curricula for schools. For example, the Home Safety 
Council's Get Ready with Freddie and Literacy Project introduces 
children to the importance of both safety and reading; Operation Hope 
introduces students, teachers, and parents to the importance of 
financial preparedness and banking basics; and the Red Cross' ``Masters 
of Disaster'' and First Aid programs teach students how to prepare for, 
respond to, and recover from a disaster.
    Schools also may access resources to learn about grant funding. 
Citizen Corps continues to build partnerships with school 
representatives to participate in coordinated State, Urban Area, and 
local efforts to apply for community preparedness funding through 
Citizen Corps and other grant programs. It is important for school 
administrators to recognize that school participation on Citizen Corps 
Councils helps ``leverage'' grant funding for school and community 
preparedness. At the State level, school administrators and State 
Citizen Corps Programs have worked together on funding initiatives in 
schools. One such example includes the facilitation of Teen Community 
Emergency Response Team (CERT) Train the Trainer courses.
    Administered by DHS, the CERT program educates people about 
disaster preparedness and trains them in basic disaster response 
skills, such as fire safety, light search and rescue, and disaster 
medical operations. Using their training, CERT members assist others in 
their neighborhoods and workplaces following events, and they take more 
active overall roles in preparing their communities. In addition to 
Teen CERT, this program has expanded in recent years to include Campus 
CERT, which offers CERT training to America's teenagers and young 
adults.
    At the local level, schools and local emergency managers and/or 
Citizen Corps Council leaders have collaborated on preparedness 
outreach efforts to include students, parents, and faculty. Some 
examples are:
        <bullet> DeSoto County, Mississippi, and the State of 
        Mississippi: The State of Mississippi has made working with 
        schools a priority for its Citizen Corps Program. In DeSoto 
        County, emergency management officers work with the local 
        school system on emergency planning and provide CERT training 
        to school faculty. Also in DeSoto, Citizen Corps volunteers and 
        professional responders help schools develop emergency plans 
        according to the hazards they face and design exercises to test 
        the plans. Statewide, the Mississippi Citizen Corps Council has 
        focused on the delivery of CERT training for educators in 
        elementary and secondary schools, as well as universities and 
        colleges. Last year, DeSoto's Citizen Corps Council began 
        providing CERT training to faculty at all 26 elementary and 
        secondary schools in the district.
        <bullet> Eugene, Oregon, Police Department: Through the 
        department's School Resource Team, police officers volunteer to 
        mentor students by having lunch with them, assist with crime 
        prevention class presentations and development of social skills 
        classes, tutor students in after school homework clubs, and 
        interact with students, staff, and administrators.
        <bullet> Hillsborough County School Board (Tampa, Florida) and 
        Sarasota County School District's North Port High School (North 
        Port, Florida): The Hillsborough County School Board and North 
        Port High School offer CERT training to students, teachers, and 
        safety professionals. They are currently offering basic CERT 
        training, as well as advanced/refresher training in Terrorism, 
        Fire Scene Rehab Support, Mass Casualty Scenarios, and Bio-
        readiness for Safety Professionals. Hillsborough County is on 
        track to train 150 students and Sarasota County plans on 
        training 300 participants.
    Four Citizen Corps Partner Programs may be of interest to local 
schools, first responders and others who are interested in education, 
training, and preparedness activities for the community:
        <bullet> An expanded Neighborhood Watch Program (NWP) 
        incorporates terrorism awareness education into its existing 
        crime prevention mission, while also serving as a way to bring 
        together residents to focus on emergency preparedness and 
        emergency response training. Funded by the Department of 
        Justice, Neighborhood Watch is administered by the National 
        Sheriffs' Association.
        <bullet> The Medical Reserve Corps (MRC) program strengthens 
        communities by helping medical, public health, and other 
        volunteers offer their expertise throughout the year as well as 
        during local emergencies and other times of community need. MRC 
        volunteers work in coordination with existing local emergency 
        response programs and also supplement existing community public 
        health initiatives, such as outreach and prevention, 
        immunization programs, blood drives, case management, care 
        planning, and other efforts. The MRC program is administered by 
        the U.S. Department of Health and Human Services.
        <bullet> Volunteers in Police Service (VIPS) works to enhance 
        the capacity of State and local law enforcement to engage 
        volunteers. VIPS serves as a gateway to information for and 
        about law enforcement volunteer programs, including programs 
        geared toward young people. For example, VIPS has produced a 
        10-minute video on ``Engaging Youth through Volunteerism.'' 
        VIPS also sponsors a Police Explorers program for teens and 
        young adults ages 15 to 21.
        <bullet> The Fire Corps promotes the use of citizen advocates 
        to enhance the capacity of resource-constrained fire and rescue 
        departments at all levels: volunteer, combination, and career. 
        Citizen advocates assist local fire departments in a range of 
        activities including fire safety outreach, youth programs such 
        as its Explorers program, and administrative support. Fire 
        Corps provides resources to help fire and rescue departments 
        create opportunities for citizen advocates and promote citizen 
        participation. Fire Corps is funded through DHS and is managed 
        and implemented through a partnership among the National 
        Volunteer Fire Council, the International Association of Fire 
        Fighters, and the International Association of Fire Chiefs.

                                 <all>

</pre></body></html>
